<html>
<title> - AFGHANISTAN: U.S. POLICY AND INTERNATIONAL COMMITMENTS</title>
<body><pre>[Senate Hearing 114-708]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-708
 
                      AFGHANISTAN: U.S. POLICY
                     AND INTERNATIONAL COMMITMENTS

=======================================================================

                                HEARING
                                
                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                     
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________
                               
                           SEPTEMBER 15, 2016

                               __________


       Printed for the use of the Committee on Foreign Relations
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
       


                   Available via the World Wide Web:
                       https://www.gpo.gov/fdsys
                       
                       
                       
                       
                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 27-081 PDF              WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                           
                       
                       
                       


                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
              Rob Strayer, Majority Chief Counsel        
            Margaret Taylor, Minority Chief Counsel        
                    John Dutton, Chief Clerk        


                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1

Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     2

Olson, Hon. Richard, Washington, DC..............................     4
    Prepared statement...........................................     5
    Responses to Questions for the Record Submitted to Ambassador 
      Olson by Senator Cardin....................................    42
    Responses to Questions for the Record Submitted to Ambassador 
      Olson by Senator Rubio.....................................    43
Sampler, Donald L., Jr., Washington, DC..........................     9
    Prepared statement...........................................    11
    Responses to Questions for the Record Submitted to Mr. 
      Sampler by Senator Cardin..................................    46
    Responses to Questions for the Record Submitted to Mr. 
      Sampler by Senator Rubio...................................    48




                             (iii)        

  


         AFGHANISTAN: U.S. POLICY AND INTERNATIONAL COMMITMENTS

                              ----------                              


                      THURSDAY, SEPTEMBER 15, 2016

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:54 a.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Flake, Gardner, 
Isakson, Barrasso, Cardin, Menendez, Shaheen, Udall, and 
Murphy.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. I want to thank you gentlemen for being here 
and for your service to our country. The meeting is called to 
order.
    I apologize for being a few minutes late. I forgot we 
changed the time to 9:45 from 10 so Ben could go to a meeting 
that I think is occurring at 10:30. So thank you for 
accommodating both meetings.
    Obviously, Afghanistan continues to be something that is 
important to our U.S. national interests. We brokered a 
government, if you will, the United States did in 2014, that 
created both a President and CEO office that has not been 
confirmed, if you will, through the loya jirga and continued 
on.
    I think we had concerns about that process taking place. 
And you wonder about the support that that government has 
relative to not being confirmed in the way that it normally 
would.
    I have tremendous respect for President Ghani and a warm 
relationship with CEO Abdullah. Obviously, their roles together 
have been interesting. They have sort of muddled through it 
together, as one might expect with the type of arrangements 
that have been ``created from the outside.''
    I was really glad to see President Obama commit to 8,400 
troops going forward. I think the security situation there does 
not warrant changing that at this time. I would have liked for 
it to have occurred earlier, but it seems like we have been 
able to continue to have the support of our allies in the 
region.
    I appreciate, certainly, the additional authorities that 
have been given to our military there to counter Al Qaeda and 
to work more closely with the Afghan troops themselves.
    I think we know that the close air support has been very, 
very important to them in saving their lives and pushing back 
what is happening with insurgencies there.
    We have a complicated future there, and I do want to hear 
from both of our outstanding witnesses today.
    On one hand, we have the Taliban there that we are 
continuing to counter, appropriately so. And on the other hand, 
we have expressed, in the past, our desire to negotiate a 
settlement with the Taliban, the very people we went to 
Afghanistan in the first place in 2001 to take out.
    It is very complicated, complicated further by the fact 
that Pakistan continues to be a tremendously duplicitous 
partner in this.
    Mr. Olson and I have talked about this on several 
occasions, but certainly, they are working against our 
interests there through helping support, in the ways that they 
do, the Haqqani network. They are the greatest threat to 
American soldiers there, certainly the greatest threat to the 
Afghan military and civilians.
    So I look forward to your testimony. I do wish it was 
enhanced with someone from the military. I had a good meeting 
yesterday with one of the generals involved in the transition 
issues.
    I do not understand why the civilian side of the military 
continues to be in over their head, it seems, in their ability 
to cooperate in hearings that would be very beneficial to our 
witnesses. But they seem to be in over their heads.
    So with that, I will turn to Senator Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, Mr. Chairman, first, thanks for 
convening this hearing on the 15th anniversary of the 
international engagement in Afghanistan. I think it is 
appropriate that we take a look at where we are and where we 
are heading, and evaluate how we can achieve our objectives.
    This hearing, of course, is in the aftermath of the NATO 
Warsaw Summit, so we will be able to at least get an update as 
to the commitments made there, and the upcoming Brussels 
conference, which will take place in October.
    Ambassador Olson, I want to share Chairman Corker's 
comments.
    The first issue of concern is security, and I take it the 
Department of Defense felt that you were fully capable of 
responding to all of our questions on the security issues, 
because they declined to have you have help at this hearing, 
which I join Senator Corker in expressing my regret.
    The Chairman. And that was the civilian side, we might add, 
the civilian leadership, not the military leadership.
    Senator Cardin. Absolutely.
    So anyway, we will want to get an update on the security. 
It is critically important.
    We know the Afghan Special Forces have been particularly 
effective, but it looks like they are stretched rather thin 
throughout the country in dealing with the security needs. So 
we would be interested as to how the conventional forces are 
capable of maintaining the security in the different regions of 
Afghanistan. That is critically important.
    Obviously, the peace process, what is happening? Is there a 
possibility we can move forward? Pakistan's role, is it 
constructive in assisting us in the peace process in 
Afghanistan?
    I look forward to your update on the governance structures 
within Afghanistan, the status of the emerging democratic 
institutions.
    Senator Corker already mentioned that President Ghani and 
CEO Abdullah, the national unity government agreement of 2014. 
We have seen signs, at least recently, that there has been some 
division here. Is the unity still there? Is it still 
effectively operating as a unity government in Afghanistan?
    I am extremely interested in the protection of human 
rights. Recent reports of child abuse by some of the Afghan 
National Security Forces, that is absolutely unacceptable. And 
I want to make sure that, in our participation in Afghanistan, 
we have zero tolerance for that type of activity and that is 
made clear through all of our participating arms.
    Which brings me to Mr. Sampler and the work that USAID is 
doing in Afghanistan, our largest efforts in the world, at 
great personal sacrifice to the men and women who are carrying 
out that aid, some who have given their lives.
    So I really first express my deep appreciation to the 
workforce at USAID and the leaders there.
    Mr. Sampler, I understand that this may be one of your last 
days at USAID, that you are moving on. And I just really want 
to thank both of you for your service to our country.
    Lastly, we need to take a look at the aid program, as to 
how it is being administered. Considering the size of the 
Afghan economy, is it being right-sized? Do we need to make 
sure that it is working effectively in carrying out lasting 
reform? It is time for us to evaluate that aid package as well.
    So, Mr. Chairman, this is a very important hearing. As you 
pointed out, I regret that I will be leaving for part of the 
hearing. We have the Counselor of Burma that is in town.
    You had a chance, Mr. Chairman, to meet with her yesterday 
at breakfast. I have an opportunity to meet with her in a few 
moments, and I am going to take advantage of that.
    The Chairman. Well, very good. We appreciate those 
comments, and, obviously, you will be the first questioner so 
you make sure that you have time to do what you need to do.
    Our first witness is Ambassador Richard Olson, the United 
States Special Representative for Afghanistan and Pakistan.
    I think you may be leaving soon, too. Is that correct?
    Ambassador Olson. I will be departing before the end of the 
year, sir.
    The Chairman. We thank you also. Both of you are leaving 
very soon for distinguished careers in helping ensure that our 
national interests are pursued, and we thank you for being here 
today.
    Our second witness is Mr. Donald L. Sampler, Jr., the 
Assistant to the Administrator for Pakistan and Afghanistan at 
USAID.
    We appreciate you both being here. I think you know you can 
summarize your comments, if you will, in about 5 minutes.
    Without objection, your written testimony will be made part 
of the record.
    And, again, we thank you both for being here. And if you 
would just speak in the order introduced, that would be great. 
Thank you.

STATEMENT OF THE HON. RICHARD OLSON, SPECIAL REPRESENTATIVE FOR 
AFGHANISTAN AND PAKISTAN, U.S. DEPARTMENT OF STATE, WASHINGTON, 
                              D.C.

    Ambassador Olson. Chairman Corker, Ranking Member Cardin, 
members of the committee, thank you for inviting me to update 
you on U.S. engagement in Afghanistan and the region.
    In light of many years working together, I wanted to 
express my sincere appreciation and gratitude to the members 
and staff of the committee for your continued support of one of 
our highest priority foreign policy agendas.
    2016 has been a significant year for Afghanistan and 
progress has been made, but important work lays ahead, as we 
will discuss today. My written testimony, which has been 
submitted for the record, touches on many topics that I expect 
we will discuss, including prospects for peace and 
reconciliation, and regional dynamics.
    Our partnership with Afghanistan remains strong. The 
Government of Afghanistan continues to be an important ally in 
the fight against terrorism, and Kabul works with us to 
eliminate the remnants of Al Qaeda and its affiliates, and 
disrupt and degrade the rise of Islamic State.
    To strengthen Afghanistan's capabilities as a partner, and 
to improve the lives of the Afghan people, we continue to 
invest U.S. resources to strengthen Afghanistan security 
forces, to improve governance, build institutions, and 
strengthen the economy.
    The Afghan Government has made headway on launching and 
implementing reforms using these instruments.
    We are nearing the 2-year mark of the political partnership 
between President Ghani and Chief Executive Abdullah brokered 
in 2014. Despite the challenges inherent to coalition 
government, we believe the unity government provides the most 
viable path towards stability and prosperity in Afghanistan. 
President Ghani and Chief Executive Officer Abdullah remain 
resolutely focused on achieving a more stable, secure, and 
prosperous Afghanistan.
    Political stability is directly linked to a positive 
security environment. Afghan Security Forces have incorporated 
lessons learned from previous fighting seasons into their 
current operations with improving results. The Afghan Security 
Forces are performing better this year.
    The fighting has not been easy, and there has been an 
increase in casualties, but the Taliban have not been able to 
capture or hold strategically significant locations for any 
extended periods of time.
    Afghanistan continues to engender strong international 
support. We cannot overemphasize how critical this support is 
for Afghan security and development. Afghanistan will continue 
to need international support to consolidate the gains of the 
past 15 years.
    President Obama's July troop extension announcement was 
welcomed by our allies and partners. At the Warsaw NATO summit 
in July, allies and partners agreed to extend the Resolute 
Support Mission and pledged support to the Afghan Security 
Forces for another 3 years, totaling approximately $1 billion 
per year until 2020.
    The October 4th and 5th Brussels conference on Afghanistan, 
co-hosted by the European Union and Afghanistan, will solidify 
international support for Afghanistan's development and 
government reform plans for the years ahead. Ahead of Brussels, 
Afghanistan is showing tangible reform progress that remains 
critical for donor confidence.
    While international support for Afghanistan remains strong, 
the regional picture remains complex. A constructive 
relationship between Afghanistan and Pakistan remains essential 
to bringing peace and stability to the region. Following 
significant improvement after the election of President Ghani, 
relations between Afghanistan and Pakistan have peaked and 
troughed, tested by terrorism, refugees, and border management.
    On counterterrorism, Pakistan has made progress in shutting 
down terrorist safe havens in the Federally Administered Tribal 
Areas and worked with us to decimate core Al Qaeda. Pakistan 
faces a serious threat from terrorists who continue to target 
its schools, hospitals, and places of worship.
    While Pakistan's progress is laudable, its struggle with 
terrorism will not come to an end until it decisively shifts 
away from tolerating externally focused groups. U.S. officials 
have been very clear that Pakistan must target all militant 
groups without discrimination, including those that target 
Pakistan's neighbors, and shut down all safe havens in its 
territory.
    In this regard, we welcome General Raheel Sharif's 
statement on July 6th, in which he directed Pakistani military 
commanders, intelligence agencies, and law enforcement 
officials to take concrete measures to deny any militant safe 
haven group safe haven or use of Pakistani soil to launch 
terrorist attacks in Afghanistan.
    While significant obstacles lay ahead, from corruption to 
ministerial administration, and the need for further economic 
and political stability, Afghanistan continues to be an 
invaluable partner for the United States in the heart of Asia.
    Thank you for the opportunity to address the committee 
today, and I look forward to our discussion and your questions. 
Thank you, sir.
    [Ambassador Olson's prepared statement follows:]

                Prepared Statement of Hon. Richard Olson

    Chairman Corker, Ranking Member Cardin, members of the committee--
thank you for inviting me to appear before you today to update you on 
Afghanistan: U.S. Policy and International Commitments.
                                overview
    2016 has been a significant year for Afghanistan. In their second 
year bearing full security responsibility, and despite facing a 
formidable foe on the battlefield, the Afghan National Defense and 
Security Forces (ANDSF) demonstrated greater discipline, capacity and 
esprits de corps than we have seen thus far. We have an engaged and 
constructive partner in the Afghan government, which has continued to 
demonstrate real progress towards major reform and development 
milestones. This includes accession to the World Trade Organization in 
July, increased revenue collection, establishment of a new Anti-
Corruption Justice Center, implementation of anti-money laundering 
regulations, and substantial upgrades to critical infrastructure 
projects. Importantly, at the Warsaw Summit in July, our North Atlantic 
Treaty Organization (NATO) allies and coalition partners successfully 
extended international support for Afghan security forces beyond 2016.
    Our work is far from over. Next month, Afghanistan will seek 
additional support for its development imperatives at the European 
Union's Brussels Conference on Afghanistan. Critical to the success of 
the conference will be the unity government's message. President Ghani 
and Chief Executive (CEO) Abdullah continue to work through challenges 
associated with their political partnership, as they remain resolutely 
focused on achieving a more stable, secure, and prosperous Afghanistan. 
President Ghani and CEO Abdullah are both committed to moving the 
country forward, strengthening its democracy, and deepening its 
institutional roots.
                            unity government
    The strong bilateral relationship between the United States and 
Afghanistan undergirds Afghanistan's continued progress. Afghanistan 
remains an important partner of the United States in the fight against 
terrorism, working with us to eliminate the remnants of al-Qaeda and 
its affiliates. In order to strengthen Afghanistan's capabilities as a 
partner, and to improve the lives of the Afghan people, we continue to 
invest U.S. resources to help Afghanistan improve its governance, 
institutions and economy.
    Our partnership is built on the Strategic Partnership Agreement 
signed in 2012, which lays out respective economic and political 
commitments, as well as the Bilateral Security Agreement, which lays 
out mutual security understandings. President Ghani signed the 
Bilateral Security Agreement as one of his first acts as President. 
Both agreements extend through 2024, making clear that the United 
States and Afghanistan see this as an enduring relationship with mutual 
political and security benefits.
    The United States remains firmly committed to the unity government 
established through the 2014 political agreement brokered by Secretary 
Kerry. The unity government provides the most viable path towards 
stability and prosperity in Afghanistan, despite the challenges 
inherent to coalition governments. As we near the two-year mark of the 
political partnership between President Ghani and CEO Abdullah, there 
has been predictable jockeying among political actors in Kabul. It is 
difficult to predict how this will evolve over coming weeks, but our 
position has been clear.
    As Secretary Kerry said during his visit in April, the government 
has a five-year mandate under the Afghan constitution. We continue to 
urge all parties to resolve their political differences peacefully and 
in accordance with the country's Constitution and laws. Afghanistan is 
a diverse country, and its citizens need and deserve a government that 
is effective, inclusive and able to represent all segments of society. 
President Ghani and CEO Abdullah remain committed to holding the 
parliamentary elections and Constitutional Loya Jirga called for in 
their political agreement, and are working to implement the electoral 
reforms needed to address the shortcomings that have undermined 
previous elections. U.S. officials at all levels continue to emphasize 
the importance of tangible progress on electoral reforms, a credible 
election timeline, and a reasonable plan to prepare for the 
Constitutional Loya Jirga.
                          progress on security
    Political stability and unity are also necessary to create the 
right conditions for continued progress by the ANDSF on the 
battlefield. Afghan security forces have incorporated lessons learned 
from the previous fighting season into their current operations, with 
improving results.
    This year, the ANDSF developed a campaign strategy of ``fight, 
hold, disrupt'' which involved defending key population centers and 
infrastructure, holding onto other critical areas through enhanced 
coordination between the army and police, and, finally, disrupting 
insurgent activities where a persistent ANDSF presence is not required. 
The fight has not been easy. The ANDSF casualty levels are higher this 
year than last, but the ANDSF continue to execute their campaign 
strategy and have demonstrated their resilience in security operations 
around the country. The Taliban have also suffered significant 
casualties and have been unable to capture or hold strategically 
significant locations for extended periods. They have failed to achieve 
their strategic goal of overthrowing the government by force.
    U.S. forces are also continuing to disrupt and degrade Islamic 
State activities in Afghanistan, through partnered operations with 
Afghan forces, as well as unilateral operations. Combatting the Islamic 
State and the remnants of al-Qaeda will continue to be a priority for 
the United States, as we work to ensure that Afghanistan is never again 
a safe haven for terrorism. And we are not alone in our support for 
this imperative.
                cooperation with international partners
    Afghanistan continues to engender strong international support. The 
long duration, broad participation and extensive level of this support 
is a testament to the international community's enduring commitment to 
Afghanistan as it labors to become a secure, stable and economically 
viable regional actor. We cannot overemphasize how critical this 
support continues to be.
    Through NATO, thirty-nine allied and partner countries, including 
the United States, are working together to provide training, advice and 
assistance to the Afghan security forces via the non-combat Resolute 
Support Mission. President Obama's announcement in July that the United 
States will retain some 8,400 U.S. forces in Afghanistan into 2017, 
roughly 6,300 of them for the NATO mission, was welcomed by allies; 
similar commitments of support were made by other Resolute Support 
partners at the NATO Warsaw Summit. At Warsaw, allies and partners 
agreed to extend the Resolute Support Mission beyond 2016, and to do so 
in several geographic areas. This is critical, as it will allow us to 
continue to provide training, advice, and assistance to the ANDSF in 
the provinces at the corps level. Allies and partners are expected to 
provide roughly 6,000 troops to Resolute Support in 2017, in addition 
to pledged U.S. forces. As demonstrated by the ANDSF's improved 
operations, the coalition's train, advise and assist mission is 
working; investments are paying off at the tactical and institutional 
levels.
    In addition to the Resolute Support Mission, the international 
community continues to provide not only political and diplomatic 
support, but also significant financial assistance. This has been borne 
out in unprecedented levels of development and security assistance.
                         warsaw summit pledges
    At the Warsaw Summit, nearly thirty donor nations pledged to extend 
current financial assistance for the Afghan security forces for another 
three years--totaling approximately one billion dollars per year for 
the 2018-2020 period. Despite shrinking aid budgets and competing 
priorities, these pledges come close to those made at the NATO Summit 
in Chicago in 2012 for the 2015-2017 period, for a combined total of 
six years of funding support. To ensure Afghan security forces are 
fully capable, it is essential that the United States also continue to 
provide robust financial support.
    Together, continued international military and financial support 
for the ANDSF has bolstered morale and ensured the continued 
development of Afghan forces. Motivated and capable security forces 
underpin public confidence. Our support has also sent an important 
signal to regional actors that international backing for Afghanistan is 
not waning. This message needs to be further underscored at the 
Brussels Conference on Afghanistan in October.
                   brussels conference on afghanistan
    On October 4-5, Afghanistan and the European Union will co-host the 
Brussels Conference on Afghanistan. As was the case for the Tokyo 
Conference of 2012 and the London Conference of 2014, the Brussels 
Conference will serve as a focal point for encouraging the Afghan 
government to make further reforms to strengthen governance, the rule 
of law, human rights, and the economy. Afghanistan recognizes that aid 
levels will gradually decrease as Afghan self-reliance increases. 
Additional reforms are slated ahead of the Brussels Conference that 
will bring Afghanistan further toward self-reliance.
    Ahead of Brussels, Afghanistan is preparing to show tangible reform 
progress on two fronts. First, Afghanistan has undertaken to achieve 30 
governance, social and economic reform goals and anti-corruption 
measures laid out in the September 2015 ``Self-Reliance through Mutual 
Accountability Framework.'' Thus far, over 90 percent of these steps 
have either been completed or are on track to be completed. Second, the 
Afghan government is working with donors to develop a set of benchmarks 
for the coming two years, to serve as the next phase of the donor-
Afghan partnership. These steps will reinforce the principle of mutual 
accountability that underpins the extraordinary support by the 
international community to Afghanistan, making clear that continued 
support at current levels is justified by measureable progress on 
vital, mutually identified reforms.
    Although development achievements over the past decade and a half 
in Afghanistan are remarkable, Afghanistan will continue to need 
international support and engagement in order to consolidate and expand 
hard-won progress to date. At Brussels, the European Union and 
Afghanistan are asking international donors to extend aid commitments 
to Afghanistan through 2020. We have supported EU and Afghan efforts to 
secure total pledges of approximately $2 billion per year in 
development assistance for 2017-2020 from other donors. We intend to 
work closely with Congress to finalize a U.S. pledge at Brussels that 
maintains our leadership role in Afghanistan and among the 
international community.
                           regional dynamics
    While international support for Afghanistan remains strong, 
regional support continues to be filtered through complex national 
priorities. Despite greater regional cooperation overall, regional 
players continue to hedge so long as they have doubts about the 
viability of the Afghan state. We continue to support Afghanistan as it 
works to improve relations with its neighbors and near-neighbors, 
promoting broader regional stability.
    A constructive relationship between Afghanistan and Pakistan 
remains essential to bringing peace and stability to the region. 
Following significant improvement after the election of President 
Ghani, relations between Afghanistan and Pakistan have peaked and 
troughed over the past year in part due to critical issues, including 
refugees, border management, and counterterrorism. However, there have 
been some encouraging signs of progress in recent months. After a 
meeting in June between Afghan Foreign Minister Rabbani and Pakistani 
Advisor on Foreign Affairs Aziz, both sides agreed to coordinate at 
senior and tactical levels on border management issues; the first 
tactical-level meeting happened in late July and both sides agreed to 
meet again. We support this mechanism and believe that more bilateral 
dialogue between Afghanistan and Pakistan will increase prospects for 
mutual understanding, regional peace and stability.
    In the wake of the deadly August 24 attack on the American 
University of Afghanistan in Kabul, Afghanistan provided Pakistan with 
evidence that prompted the Pakistan military to conduct combing 
operations in a few key areas along the Afghanistan-Pakistan border. 
Pakistan is sharing the results of those operations with Afghanistan. 
Efforts to bring those behind the attack to justice are critical.
    Pakistan's military operations in the Federally Administered Tribal 
Areas remain important. The Pakistani military has made progress in 
shutting down terrorist safe havens through Operation Zarb-e-Azb and 
most recently in Operation Khyber III in the Rajgal Valley of Khyber 
Agency, with the aim to restore security to parts of Pakistan that have 
been used as terrorist safe havens for years. Pakistan has worked with 
us to decimate core al-Qaeda.
    While the progress Pakistan has made through its recent operations 
is laudable, its struggle with terrorism will not come to an end until 
it makes a decisive shift in its policy of tolerance towards 
externally-focused groups. U.S. officials have been very clear with the 
most senior Pakistani leadership that Pakistan must target all militant 
groups without discrimination--including those that target Pakistan's 
neighbors--and close all safe havens.
    Pakistan's leaders have assured of us of their intention to do so. 
In this regard, we welcomed Chief of Army Staff General Raheel Sharif's 
statement on July 6, in which he directed Pakistani military 
commanders, intelligence agencies, and law enforcement agencies to take 
concrete measures to deny any militant group safe haven or the use of 
Pakistani soil to launch terrorist attacks in Afghanistan.
    Pakistan has also played a critical role in generously hosting 1.5 
million Afghan refugees for nearly 40 years. Pakistan's contributions 
in this regard have been essential to providing asylum space for 
Afghans displaced by conflict and in furthering our goal of long-term 
peace and stability in the region. Pakistan should continue to uphold 
humanitarian principles and respect the principle of voluntary return, 
as outlined in the Solutions Strategy for Afghan Refugees.
    Other regional actors also have a role to play. We continue to 
support the India-Afghanistan relationship, including through the 
revival of a U.S.-India-Afghanistan trilateral, which will take place 
next week on the margins of the UN General Assembly. We welcomed 
India's provision of training and non-lethal security assistance to 
Afghanistan and its significant development contributions over the past 
decade-plus. China's role in the region continues to evolve, and 
includes its participation in the Quadrilateral Coordination Group. We 
have also welcomed China's bilateral development aid and look forward 
to seeing China at the Brussels conference.
    Russia and Iran can play positive roles in Afghanistan, but will 
require intensive U.S. engagement to reassure them that they can place 
their faith in the Afghan government. Both have the potential to act as 
spoilers, and we are monitoring reports about potential collaboration 
with the Taliban against the Islamic State, which the Afghan government 
is working actively to discourage.
                             moving forward
    The next administration should continue to engage with Afghanistan 
and the region. It should continue to work with our international 
partners to advance the goal of a stable, secure and economically 
viable Afghanistan. Our focus this year, together with Afghan partners, 
has been to secure critical milestones toward this effort.
    The United States clarified its presence beyond 2016 and 
Afghanistan is working to navigate the challenges of coalition 
governance. NATO Allies and partners agreed to ensure that the Resolute 
Support Mission will continue to provide the training, advice and 
assistance the ANDSF need in 2017. In Warsaw, we worked with 
international partners to gain requisite ANDSF funding commitments for 
2018-2020. We expect to meet our financial targets for development 
funding at Brussels.
    Of course, challenges remain. Evidence of corruption and nepotism 
remain, despite positive actions and decisions in the Afghan 
ministries. Sustained leadership and action is required to prevent 
gross violations of human rights and the use of child soldiers. 
Ministerial leadership communication has improved, but operationally, 
the Afghan Army and Police still struggle to coordinate their efforts 
and focus. Continued development assistance is needed to sustain the 
gains of the past fifteen years. The Afghan government will need to 
achieve sufficient stability and necessary reforms for future elections 
to be credible.
    And, importantly, the United States will need to continue our 
persistent, patient diplomacy to achieve an Afghan-led and Afghan-owned 
peace process that leads to lasting peace in the region. We continue to 
welcome the support and cooperation of Afghanistan, Pakistan, and China 
to advance prospects for direct dialogue--free of preconditions--
between the Afghan government and the Taliban. We remain firm in our 
belief that only through a negotiated settlement--not a purely military 
campaign--will Afghanistan achieve lasting peace.
    As the U.S.-Afghan partnership moves into a new phase with a new 
U.S. administration, the stakes remain high. The actions that the 
United States has taken this year in partnership with Afghanistan have 
ensured that the next administration can work together with Congress 
for continued progress.
    Thank you for the opportunity to address the Committee. I look 
forward to our discussion today, and welcome any questions you may 
have.


    The Chairman. Thank you.
    Mr. Sampler?

     STATEMENT OF DONALD L. SAMPLER, JR., ASSISTANT TO THE 
ADMINISTRATOR, OFFICE OF AFGHANISTAN AND PAKISTAN AFFAIRS, U.S. 
     AGENCY FOR INTERNATIONAL DEVELOPMENT, WASHINGTON, D.C.

    Mr. Sampler. Chairman Corker, Ranking Member Cardin, 
Senators, friends, and colleagues, it is an honor to be able to 
testify before you today about the work of USAID in 
Afghanistan.
    Today is, in fact, my last full day as assistant 
administrator, so I will use my oral remarks at this, probably 
my last testimony, to reflect on my 14 years of almost 
continuous service in or on the reconstruction in Afghanistan.
    Within weeks of the horrific attacks of September 11th in 
2001, the U.S. and our allies had begun military action in 
Afghanistan. Supported by teams from my own former unit, the 
5th Special Forces Group, forces loyal to the Northern Alliance 
quickly defeated the Taliban.
    The Bonn Agreement established a path to governance for a 
new Afghanistan, and it established the international security 
force. And the U.S. Embassy was reopened with Ambassador Ryan 
Crocker as charge.
    I first arrived in Afghanistan early in 2002 to assess the 
capacity of the nascent Afghan Government for conducting the 
emergency loya jirga that was required by the Bonn Agreement. 
My assessment was, as you might imagine, not particularly 
optimistic.
    While Bonn had mandated that there be an interim government 
in Afghanistan, the capacity to build that government was 
basically nonexistent at the time.
    That is an important first point I would like to share as I 
reminisce. What we call the reconstruction of Afghanistan is 
something of a misnomer. The Soviet occupation, followed by 
decades of brutal civil war and privation, had robbed 
Afghanistan of any sense of what governance was or could be.
    The physical, emotional, intellectual, and human 
infrastructure of the country of Afghanistan was devastated 
over the course of 30 years, to the point that we were not 
reconstructing Afghanistan. We were helping the Afghans 
construct a new state from scratch.
    So perhaps our initial estimates of the problems, the 
requisite solutions, and the prospects for rapid, meaningful 
social changes were too optimistic.
    Yet, during the past 15 years, I have seen Afghanistan make 
remarkable gains, thanks to the efforts of the United States, 
our international partners, the Afghan Government, and the 
Afghan people.
    The key elements of USAID's Afghanistan strategy remain to 
make durable the gains made in health, education, and 
opportunities for women; to maintain a focus on economic growth 
and fiscal sustainability; and to support a transparent, 
effective government in Afghanistan that is responsive to the 
needs of its citizens.
    These efforts, in these regards, all contribute to our own 
national interests of combating terrorism and stabilizing the 
region.
    Senators, when I first arrived in Kabul in 2002, I found a 
city with virtually no infrastructure, but with fantastic hopes 
and aspirations. I found a population with very little 
capacity, but with a great passion and an energy to learn. And 
I found a country with a very bleak, divisive, and painful past 
that was hoping for a brighter future and looking to the United 
States for support in that regard.
    I am proud of what we have accomplished in Afghanistan over 
14 years with the support of the United States Congress and the 
American people.
    Today in Afghanistan, mothers and children are much less 
likely to die during or immediately after childbirth. More 
Afghans have access to health care, education, electricity, 
healthy food, clean water, cell phone service, and even the 
Internet in their rural local communities.
    Afghan farmers today are being trained and equipped with 
modern farming techniques that increase both the quality and 
the yield of their farms to the point that the Afghan Minister 
of Agriculture, Irrigation and Livestock hopes that Afghanistan 
can perhaps be food self-sufficient in 5 years.
    And the Afghan education system, from primary school 
through university, is producing young Afghan women and men who 
are capable of contributing to their country, to their society, 
and to their economy in ways that were not imaginable in 2002.
    We have accomplished much over 15 years of which we can 
collectively be proud, but we have much to learn from the 
experiences and failures along the way, and we must learn those 
lessons because we still have much more to accomplish with our 
Afghan colleagues in their decade of transformation.
    Mr. Chairman, let me conclude my remarks by recognizing the 
people who have made our progress in Afghanistan possible, the 
men and women of our military; our allies in the Afghan 
National Security Forces; the thousands of civilians working 
with and for USAID, many of whom, I might add, had never 
experienced the kind of environments they would face in 
Afghanistan; the remarkable staff at USAID, and specifically 
the staff in the Office of Afghanistan and Pakistan Affairs and 
at our mission in Kabul.
    While I have the privilege of addressing you today, the 
accomplishments about which I will boast are the fruits of 
their labor, and of their Afghan colleagues.
    And finally, I have to thank Ms. Barbara Smith, a dedicated 
and well-respected development professional who throughout my 
work in and on Afghanistan has been my counselor, confessor, 
intellectual sparring partner, and frequently my critic, but, 
most importantly, my wife. Her support has made my tenure in 
this position possible and her companionship has made it 
enjoyable.
    Finally, Mr. Chairman, as I prepare to leave government, I 
am pleased to introduce Mr. Bill Hammink. He will be sworn in 
tomorrow as the new Assistant Administrator for Afghanistan and 
Pakistan Affairs. He has served as a mission director in 
several countries around the world. He served for 3 years with 
me in Afghanistan as the mission director in that country. And 
he has served in senior positions here in Washington, so he 
knows the lay of the land here as well.
    I am confident Bill is the right person for this job, and I 
am confident he will continue to lead USAID's efforts in 
Afghanistan in ways that make us and you proud.
    Thank you, Mr. Chairman.
    [Mr. Sampler's prepared statement follows:]


              Prepared Statement of Donald L. Sampler, Jr.

    Chairman Corker, Ranking Member Cardin, and members of the 
committee, thank you for the opportunity to testify before you today to 
discuss U.S. policy and international commitments with regard to 
Afghanistan. It is an honor to appear before you with the U.S. 
Department of State's Special Representative for Afghanistan and 
Pakistan, Ambassador Richard Olson.
    As today is my last full day serving as the Assistant to the 
Administrator for the Office of Afghanistan and Pakistan Affairs at the 
United States Agency for International Development (USAID), I would 
like to begin by thanking those Americans who have served in 
Afghanistan, as well as their families. Whether serving as members of 
the armed forces, diplomats of the Department of State, aid workers 
from USAID, or the thousands of men and women who have worked shoulder 
to shoulder with us as contractors and partners, these brave Americans 
have helped the Afghan people make their country a better place. To 
that end, I would also like to recognize the Afghans who continue to 
work-and sacrifice-to make their country a place that is safe, secure, 
and a good neighbor in the region. The success of any strategy we 
discuss here today is predicated upon their continued dedication and 
our resolute support. These efforts are not without serious risk: since 
2003, 454 people working for USAID and partner organizations in 
Afghanistan have been killed and 817 have been wounded.
    Our work in Afghanistan embodies USAID's mission: We partner to end 
extreme poverty and promote resilient, democratic societies while 
advancing our security and prosperity. USAID's civilian assistance 
programs in Afghanistan are a critical component of our core U.S. 
national security objective in the region--a stable Afghanistan. We 
have seen the dire consequences of neglect and disengagement play out 
in the region before, and that is why USAID's central goal in 
Afghanistan is to promote a stable, inclusive, and increasingly 
prosperous country.
    I know that this goal is achievable because I have personally seen 
how Afghanistan has improved just over the past fifteen years. Remember 
what it was like in those early days. Within weeks of the horrific 
attacks of September 11, 2001, the U.S. and our allies had begun action 
in Afghanistan. Supported by Special Forces teams from my own former 
unit, 5th Special Forces Group, forces loyal to the Northern Alliance 
quickly defeated the Taliban. The Bonn Agreement established a path to 
governance for a new Afghanistan and established the International 
Security Assistance Force--initially a very small force confined in 
scope to the city and Province of Kabul. And the U.S. Embassy was re-
opened, with Ambassador Ryan Crocker as Charge d'Affaires.
    I first arrived in Afghanistan early in 2002 to assess the capacity 
of the truly nascent Afghan government for conducting the Emergency 
Loya Jirga that was required by the Bonn Agreement. My services were 
procured by USAID using a ``purchase order,'' meaning that I would not 
be an ``official American direct hire employee'' and would not be 
subject to the already fairly strict Chief of Mission security 
restrictions, but would have complete freedom of movement outside of 
the Embassy Compound. My assessment was, as you might imagine, not 
particularly optimistic. Bonn had mandated an ``interim government of 
Afghanistan,'' which was sworn-in on the 21st of December. But the 
capacity to actually create the government was nonexistent at the time.
    That is a significant point I wish to share with you today: what we 
call the ``reconstruction'' of Afghanistan is something of a misnomer. 
The Soviet occupation, followed by decades of brutal civil war and 
privation, had robbed Afghanistan of any sense of what governance 
should be. Their social contracts were, of necessity, renegotiated--
sometimes repeatedly--with local power-brokers, drug-traffickers, and 
warlords. The physical, emotional, intellectual and human 
infrastructure and capacity of the country were devastated over the 
course of 30 years, to the point that we were not ``reconstructing'' 
Afghanistan: we were helping them build a state from scratch. So our 
initial estimates of the problems and the requisite solutions may have 
been too optimistic.
    Yet during the past fifteen years, Afghanistan has made remarkable 
development gains across multiple sectors, thanks to the whole-of-
government efforts of the U.S., along with our international partners, 
the Afghan government, and the Afghan people. The key elements of 
USAID's Afghanistan strategy are to make durable the significant 
achievements in health, education, and opportunities for women; 
maintain focus on economic growth and fiscal sustainability through the 
government's increasing ability to collect revenue, attract investment 
and expand private sector growth; and support a transparent, effective 
government that is responsive to the development and democratic needs 
of its citizens. U.S. efforts to spur investment in Afghan enterprises 
and expand trade ties in the region all contribute to our efforts to 
combat terrorism and stabilize the region.
    Afghanistan, and the region as a whole, present both enormous 
opportunities and serious challenges. The region, wracked with conflict 
for much of the last four decades, remains one of the least 
economically integrated in the world, with much of its real human 
potential untapped. Sustainable economic development will require the 
region's leaders to make fundamental changes. U.S. civilian assistance 
programs can be a catalyst and incentive for this change, and our 
efforts in Afghanistan today are delivering tangible, measurable 
results that contribute to this transformation.
    I know from personal experience that the progress made in 
Afghanistan is remarkable. But it is still fragile. U.S. and 
international support is needed to shore up the significant investments 
that have brought the country this far. Now is not the time to walk 
away from either our partnership or our investment in the people and 
country of Afghanistan.
                   continued international commitment
    In just over two weeks, the United States and international donors 
will gather for the Brussels Conference on Afghanistan co-hosted by the 
European Union (EU) and the government of Afghanistan. The Brussels 
Conference will underscore the international community's steadfast 
support of Afghanistan's development, and will outline joint 
commitments to reform. Such international commitments and contributions 
over the past 14 years have enabled momentous achievements across 
security, education, health, the economy, infrastructure, women's 
rights and media in Afghanistan.
    In a parallel effort, developed in partnership with the 
international community, the Afghan National Unity Government has 
committed to a renewed set of reform benchmarks for the future. These 
steps acknowledge that continued international support is contingent on 
measurable progress being made by the Afghan government on these 
mutually-identified reforms. At Brussels, the Afghan Government will 
present their new Afghan National Peace and Development Framework, 
outlining priorities over the next five years, as well as five National 
Priority Programs and the next set of Self-Reliance for Mutual 
Accountability Framework deliverables. Challenges remain on the road to 
Afghanistan's progress and development, but the U.S. and the 
international community have a serious partner in the Unity Government, 
one that is engaged in reform, increasing transparency, and achieving 
progress.
                                results
    Americans should be proud of the lasting impact and legacy of their 
assistance to Afghanistan. Afghanistan has changed dramatically, and 
for the better, from 2002 to 2016. USAID programs are implemented in 
Afghanistan in coordination with the Afghan government. The strong 
partnership between the two governments ensures development assistance 
matches Afghan national priorities for progress. The following are 
examples of successful investments by the U.S. and the international 
community in Afghanistan.
Economic Growth
    Increased economic growth is crucial to Afghanistan's eventual 
self-reliance. In 2015, Afghanistan's gross domestic product (GDP) of 
nearly $20 billion is nearly two-and-a-half times greater than it was 
in 2002. In 2015, the nation's budgetary revenue increased by nearly 22 
percent. This summer the Afghan Parliament ratified the country's 
accession to the World Trade Organization (WTO). The policy and 
legislation required to accomplish WTO accession can significantly 
increase the ability of Afghan businesses to establish and benefit from 
regional trade initiatives. The moment marked the culmination of more 
than a half-decade of the country's intensive efforts to reform its 
trade environment and will open the doors to international markets, 
facilitate transit, resolve trade disputes, and pave the way for 
increased foreign investment. USAID worked closely with the Afghan 
Government in its journey to WTO membership.
    In Afghanistan's dominant economic sector--agriculture--USAID 
programs are having an important impact. The sector accounts for up to 
24 percent of Afghanistan's GDP and is critical to both the country's 
food security and as a driver of economic growth. Because of USAID 
programs, over 3.9 million Afghan households have benefitted from 
agriculture and alternative livelihood interventions and nearly 650,000 
new farm or agribusinesses jobs have been created. USAID is also 
working with business start-ups, entrepreneurs, and established 
companies to expand their business and employ more Afghans. Since 2011, 
USAID has helped facilitate $1.86 million in private-sector loans to 
575 businesswomen and provided over 3,500 women with vocational 
training and 1,200 women in business development. USAID is also working 
with established businesses like Sarallah Stone Cutting Company in 
Herat. By providing new marble calibrating and polishing machines, the 
company is expanding overall production volume and producing higher 
quality tiles, which are in high demand in domestic and international 
markets. Afghanistan has one of the largest untapped marble reserves in 
the world, presenting an enormous opportunity to expand this sector, 
and enhanced regional trade with Afghanistan's neighbors and beyond 
will fuel the sustained economic growth vital to the country's future.
Infrastructure and Energy
    Through the provision of vital services to Afghans, infrastructure 
and energy projects are a fundamental base for national stability and a 
key component for domestic and regional development and connectivity. 
That is why USAID has helped Afghans increase supplies of reliable, 
affordable electricity; expand access to potable water; and design, 
build, and maintain roads.
    In 2002, only six percent of Afghans had access to reliable 
electricity. Today, 29 percent are connected to the electricity grid. 
The Afghan Government, with help from USAID, established the country's 
electrical utility, Da Afghanistan Breshna Sherkaat (DABS), just six 
years ago. Today, DABS no longer receives a subsidy from the Afghan 
government and has posted a profit each year since 2011. USAID is 
supporting DABS to complete the work required so that by late Fall 
2016, the Kajaki Hydropower Station will be fully operational. The 
additional electricity is vital to stability and economic development 
in southern Afghanistan, and it will improve the quality of life for 
residents in Kandahar and Helmand. The full operation of Kajaki 
fulfills longstanding commitments to southern Afghanistan by both the 
Afghan and U.S. Governments.
Democracy and Governance
    Strengthened democracy and governance is crucial to promoting the 
rule of law, combatting corruption, and encouraging economic growth. 
USAID is positioned to continue helping Afghan electoral institutions 
move forward on electoral planning and reform efforts, while also 
preparing to rapidly provide more comprehensive operational assistance 
once an election timeline and framework have been established by the 
Unity Government.
    USAID democracy and governance programs complement efforts by the 
U.S. Department of Defense to train and build the capacity of the 
Afghan National Defense and Security Forces (ANDSF). USAID creates an 
enabling environment that supports the ANDSF through rule of law 
programs, judicial reform efforts and capacity and expertise-building 
within relevant ministries. This whole-of-government approach helps 
create civilian and security services that are responsive to Afghan 
citizens, undercutting claims to authority by Taliban, Al-Qaeda and 
other insurgent groups.
    Under the leadership of President Ashraf Ghani and Chief Executive 
Officer (CEO) Abdullah Abdullah, the Afghan Unity Government is taking 
measures to reduce corruption and enhance transparency in public sector 
and parastatal institutions. This summer, with support from USAID, the 
Afghan Customs Department and Afghanistan Bank implemented the first 
electronic payment system for customs duties. The e-payment system 
automates collection of customs duties at border crossings, like Mazar-
i-Sharif which is Afghanistan's gateway to trade in Central Asia, and 
eliminates the need for traders to carry cash, thus reducing 
opportunities for corruption. Earlier this year, the Minister of Public 
Health invited the Independent Joint Anti-Corruption Monitoring and 
Evaluation Committee to review the government ministry under his 
direction. The thorough, and public, analysis identified opportunities 
for tackling corruption at the ministry that are now being addressed by 
the government. Two additional ministries have publicly stated their 
interest to conduct similar anti-corruption analyses of their 
ministries.
Health and Education
    In 2001, few Afghans had access to trained healthcare providers; 
today, approximately 57 percent of the population lives within a one-
hour walk of a health facility, enabling Afghans to seek medical 
attention from trained staff and obtain needed medicines. According to 
the USAID-funded Afghan Demographic and Health Survey, the under-five 
mortality rate has decreased from 87 per 1,000 live births in 2005 to 
55 in 2015. In cooperation with the Afghan Ministry of Public Health, 
USAID has trained more than 2,000 women in midwifery.
    Huge strides have been made in access to education in Afghanistan. 
According to the Ministry of Education, over nine million students have 
enrolled in school, including nearly 3.5 million girls. University 
enrollment increased from 8,000 in 2001 to 174,000 in 2015. USAID 
supports improving the quality of basic education by helping to train 
more than 154,000 Ministry of Education teachers, including more than 
54,000 women, and by distributing more than 130 million textbooks to 
schools. USAID has helped over 84,000 Afghan girls attend community-
based education classes, eliminating the need for the girls to travel 
long distances to attend school.
Women and Girls
    Women and girls in Afghanistan are integral to ensuring the 
country's future stability and prosperity. In addition to tremendous 
improvements for Afghan women and girls' access to education and 
health, USAID programs continue to implement gender-conscious 
programming as a cross-cutting priority across all development sectors. 
USAID is determined to ensure gains for women are sustained and 
opportunities for their development are enhanced.
    In Afghanistan, USAID is implementing ``Promote,'' a program that 
builds upon the achievements women and girls have made since 2001 by 
developing a cadre of 75,000 educated Afghan women between the ages of 
18 and 30, and empowering them to fully participate in the economic, 
political, and civil society sectors of their nation. Programming under 
Promote supports women to establish or expand small- to medium-sized 
businesses; helps civil society organizations increase their knowledge, 
skills, and capacity to advocate on women's issues; facilitates 
fellowships with Afghan ministries to increase the number of women in 
the civil service; and provides management and leadership training to 
women in public, private and civil service sectors.
    On July 7, USAID announced a commitment of $25 million to the 
global Let Girls Learn Initiative. As part of a new partnership with 
the United Kingdom's Department for International Development Girls 
Education Challenge, this support will help sustain a teacher 
apprenticeship program for adolescent girls.
    In partnership with the Italian Development Cooperation, and 
through the World Health Organization, USAID is supporting work toward 
a Gender Based Violence protocol that will improve standards of care to 
survivors. An additional project will build awareness on trafficking 
and support protection services for victims.
                             accountability
    USAID remains committed to programs in Afghanistan that are 
effective, accountable, and sustainable, and the Agency takes oversight 
and accountability of its programs and use of U.S. taxpayer dollars 
very seriously. Afghanistan is a challenging environment, but USAID 
continues to refine and adapt programs in order to achieve the best 
possible results in the most efficient and cost effective manner. As it 
does around the world, in Afghanistan USAID employs rigorous oversight 
and monitoring to safeguard its programs from waste, fraud and abuse 
and to ensure that American investments in Afghanistan are achieving 
their intended impact. USAID adjusts or suspends projects if 
performance is not on track or oversight standards cannot be met.
    Above and beyond the Agency's standard oversight measures, USAID 
has implemented steps in Afghanistan to prevent funds from being 
misused or diverted to malign actors. USAID created a multi-tiered 
monitoring approach that allows it to collect monitoring data from 
multiple sources, validate findings, and make better programmatic 
decisions. The levels of monitoring include: (1) direct observation by 
U.S. government personnel; (2) implementing partner reporting; (3) 
feedback from Afghan government officials and other donors; (4) local 
civil society organizations and beneficiaries; and (5) the use of 
third-party monitoring agents in the field. USAID has used the last 
measure--third-party monitors--to conduct nearly 33,000 visits to USAID 
sites or projects since 2011.
    USAID also vets non-U.S. companies and non-U.S. key individuals for 
prime contractors, sub-contractors, grant recipients and sub-grantees 
to determine whether or not they are associated with known malign 
entities or individuals. Since the vetting program began in 2011, USAID 
has vetted 7,490 people and entities, determining 305 ineligible (a 
rate of about four percent) and kept approximately $670 million from 
being awarded to those who did not meet vetting requirements.
                               conclusion
    Senators, when I first arrived in Kabul I found a city with no 
infrastructure, but with great hopes and aspirations. A population with 
very limited capacity, but with great passion and energy to learn. And 
a country with a bleak and painful past that was hoping for a brighter 
future. I'm proud of the work that we have been able to do in 
Afghanistan, with the unwavering support of the US Congress and the 
American people. Mothers and children are much less likely to die in or 
immediately after childbirth; more Afghans have access to healthcare, 
education, electricity, cellphone service and even the internet in 
their local communities. The Afghan education system--from primary 
school through university--is producing young Afghan women and men who 
are capable of contributing to society and to an economy in ways that 
were not imaginable in 2002. Afghan farmers are being trained and 
equipped with farming techniques that increase the quality and yield of 
their produce, and the Afghan Minister of Agriculture, Irrigation and 
Livestock hopes Afghanistan can be food-secure in 5 years.
    As USAID looks to Brussels and beyond, the Agency is committed to 
sustaining the significant development achievements made in partnership 
with the government and people of Afghanistan. USAID is determined to 
make every effort to safeguard taxpayer funds while ensuring 
development progress is sustained and led by a new generation of 
Afghans. Remember that development takes time: at fifteen years, our 
own fledgling country had just authored a Constitution; struggled 
mightily with debt and generating revenue; had not abolished slavery; 
nor given women the right to vote. So for the sake of both of our 
nations, the U.S. should be patient as we help the people of 
Afghanistan develop their state and their country.
    As I complete my service in USAID's Office of Afghanistan and 
Pakistan Affairs, I want to take this public opportunity to share that 
it has been an honor and a pleasure to serve in this capacity and work 
with the women and men of USAID and with the staff of our Missions in 
Kabul and Islamabad. I also want to thank Members of Congress and 
Congressional staff, from both sides of the aisle, for their time, 
commitment, and guidance on USAID's Mission in Afghanistan. This is 
especially true regarding those who have traveled to the region and met 
with USAID workers, including the Afghans and Pakistanis who comprise 
our Foreign Service National staff.
    Tomorrow William Hammink will be sworn in as Assistant to the 
Administrator for the Office of Afghanistan and Pakistan Affairs. 
Having served as USAID's Mission Director to Afghanistan from 2013-
2015, and in leadership roles throughout the agency and in nine 
Missions, Bill is exceptionally qualified to take the reins of this 
dynamic USAID portfolio. I know Bill looks forward to working with you 
soon after he is sworn into the position, and I am confident that I am 
leaving my position in good hands.
    Thank you and I welcome your questions.


    The Chairman. Well, thank you, and we are certainly 
fortunate that both of you are here today, and we certainly 
deeply appreciate Ambassador Olson's service to our country.
    I will say that for someone who has been involved in 
Afghanistan for 14 years and has committed to it in the way 
that you have, we are especially fortunate to have you here 
today.
    I hope you will write a book, I really do, seriously, to 
help us think about engagements like this more fully in the 
future. I am sure the knowledge that you have, the experiences 
that you have gained, are invaluable. And while I had planned 
to focus on Afghanistan's other issues today, I look forward to 
seeking some of that advice today.
    But thank you so much for being here.
    Bill, I assume, is the gentleman sitting right behind you 
nodding his head. We welcome you.
    And with that, I will turn to Senator Cardin.
    Senator Cardin. Well, thank you, Mr. Chairman. I join you 
in thanking both of our witnesses for their public service in 
extraordinarily challenging surroundings. I cannot imagine what 
you saw 15 years ago.
    And we are all very concerned about what the light is at 
the end of this tunnel, and how long it is going to take in 
order to reach that, and how much more of our military and 
civilian efforts are going to be needed before the country is 
self-sufficient. And I hope we will get into those types of 
questions during this hearing.
    But let me just focus on one or two issues that I want to 
make sure we follow up on.
    Ambassador Olson, the last time we had a hearing, I talked 
about the pervasive problems of corruption. You acknowledged 
that is a serious problem within Afghanistan and indicated that 
the mutual accountability framework could be used to have 
greater accountability in this area.
    Can you just update us as to what will be done, perhaps in 
Brussels, to make sure that we stay focused on achievable 
results in fighting corruption in Afghanistan?
    Ambassador Olson. Thank you, Senator.
    Corruption does, indeed, continue to be an enormous 
challenge for Afghanistan, but I can tell you that the 
Government of Afghanistan, starting with President Ghani, takes 
this challenge very seriously.
    First of all, let me say that our assistance to Afghanistan 
is conditioned, in particular the security assistance provided 
through defense channels, through the Combined Security 
Transition Command to Afghanistan, and includes specific 
measures to root out corruption and prevent corruption of 
contracting authorities such as fuel.
    USAID, and I am sure my colleague, Larry, can talk quite 
about this, sponsors extensive anticorruption components.
    On the political side of the house, the recent appointment 
of the attorney general, Mr. Hamidi, who has an excellent 
reputation in this area, is working to promote the rule of law 
and to take specific anticorruption measures.
    In June of 2016, with the support of the U.S. Government, 
he administered applications for 25 vacancies to ensure that 
government positions are filled on merit. That is one small 
example.
    The Afghan Government's anticorruption efforts have been 
backed by actions there. President Ghani has established a High 
Council for the Rule of Law and Anti-Corruption, which met for 
the first time in August. He announced the establishment of an 
anticorruption justice center to----
    Senator Cardin. That is good. I know those areas are good.
    There has been little activity by the anticorruption 
justice center to date, and I would just urge you that we, the 
United States in our capacity, continue to keep a very bright 
spotlight on these issues.
    And I would personally ask you keep this committee informed 
as to progress made, not just on corruption and fighting 
corruption, but also on advancing the human rights issues. And 
we will, I am sure, during the course of this hearing--if not, 
we will--make sure it is available to you, our specific 
concerns.
    Yes, I think those steps are good, but, to date, we have 
not seen enough evidence that it really is taking root. So we 
need to continue to make a major spotlight on it.
    I have one more just administrative question. We have 
special bureaus for Afghanistan and Pakistan. Is it likely that 
that structure will continue indefinitely, or is there plans to 
integrate it into the normal bureaus at both State and USAID?
    Ambassador Olson. For the State Department, the Office of 
the Special Representative for Afghanistan and Pakistan will be 
continuing for the time being. I think Secretary Kerry and the 
leadership of the State Department will be making decisions 
about how this is presented to the incoming administration, the 
transition teams.
    But for the time being, we continue to have the special 
representative's office.
    Senator Cardin. Mr. Sampler, you said that you had learned 
lessons over the last 14 years. I alluded to, what is the light 
at the end of the tunnel? And how much longer will it be before 
we can start to significantly turn over the responsibilities to 
the Afghan people?
    Mr. Sampler. Senator, with respect to the light at the end 
of the tunnel, I would argue that there are literally millions 
of Afghans who see that light already and enjoy the benefits of 
the intervention that we made 15 years ago.
    When we talk about the Taliban and when we talk about the 
conflict in Afghanistan, it is important to remember that well 
less than 5 percent of the population of Afghanistan is under 
the rule of the Taliban. Now that number fluctuates as the 
combat rolls around, but the vast majority of the Afghan people 
are living a much better life than they could ever have 
envisioned in 2002.
    I take your point that that was not really what you were 
looking for, but in terms of the future of Afghanistan, one of 
the points that I like to make after doing this for 15 years is 
we are there. We need to continue to support Afghanistan. We 
need to make sure that these changes for women and girls and 
for young entrepreneurs are not rolled back, that the 
opportunities that we, with your support in 2002, began to 
create in Afghanistan are reaching fruition now.
    And I would like to address a little bit of, as I answer 
that, your corruption question. You know, Ambassador Olson 
talked about some of the grand schemes and the strategic level 
things we are doing.
    The U.S. Government is supporting something called the 
joint interagency Monitoring and Evaluation Commission for 
fighting corruption in Afghanistan, the MEC. And the MEC has 
reached agreement with six different ministries to do internal 
audits, and this is all on their own doing, to do internal 
audits of those ministries, looking for signs of corruption or 
vulnerabilities to corruption, and then working with those 
ministries to address them.
    They have done this already with the Ministry of Public 
Health. I think it probably alarmed the minister that he was 
going to show all his dirty laundry in one of these open 
hearings. It was done at President Ghani's insistence, and it 
has been very productive.
    Likewise, we have mechanisms in place to protect Government 
of Afghanistan programs we are supporting and to protect U.S. 
tax dollars.
    So the corruption that you mention is endemic in 
Afghanistan, and, to be honest, it is endemic in most of the 
countries that USAID works in around the world. But we are 
configured to help prevent it, and we are in this for the long 
haul to help the Afghans combat it and ultimately defeat it.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. I am just going to ask one 
question. I want to make some interjections.
    I will make the observation that Ambassador Holbrooke's 
vision of the relationship between Pakistan and Afghanistan at 
the time, while certainly was the best we could make at the 
time, is different than we thought. And so I do think it is 
worthy of looking at this relationship and having a Pakistan-
Afghanistan official because there is a lot of conflict there, 
and I would love to have your counsel off record as to whether 
that is still something that makes sense or actually breeds 
distrust by both countries, because of having this singular 
role. So I think that is worth discussing.
    Larry Sampler, first of all, how much are we annually 
expending, the United States Government, on Afghanistan today?
    Mr. Sampler. Senator, let me, in a broad sense we have 
spent $21 billion----
    The Chairman. But this year, how much will we expend?
    Mr. Sampler. You have appropriated to us right at $1 
billion this year.
    The Chairman. No, no, no, no. No, no.
    Mr. Sampler. How much have we spent?
    The Chairman. No. How much we spend each year in support. I 
am not talking about you at USAID. The U.S. Government, in 
general, support of the military, support of the security, 
their military, their security, and our, certainly----
    Mr. Sampler. Senator, I do not know the answer to that 
because I do not know what the military spends.
    The Chairman. No. I am not talking about even our own 
military. I am talking about in support of their military.
    Olson, do you want to answer that?
    Ambassador Olson. Yes, I mean, in broad terms, sir, the 
figure is about $5 billion a year. I mean, we pay about $4 
billion a year in support of the Afghan National Defense and 
Security Forces and roughly $1 billion in terms of civilian 
assistance.
    The Chairman. And that doesn't include, of course, what we 
are spending on the troops that we have on the ground there.
    I think the numbers are up close to $10 billion a year, but 
I would love to be corrected.
    My question, in getting to that, I did not think it would 
take that long, but is to ask someone who has been invested in 
the way that you are, who has seen his brothers and sisters 
killed, maimed, back here in many disabled positions, as a 
person, again, who sees the future there, but since you will 
not have this opportunity likely again, we are going to spend 
this kind of money, ad infinitum. I mean, 95 percent of 
Afghanistan's budget structure comes from donors, okay?
    We know this is going to go on ad infinitum. I mean, there 
is no end to this in sight.
    And I would just love for you to share with us, you did 
speak about some of the things that have transpired within the 
country, but as our citizens look at our national interests and 
they weigh $10 billion a year ad infinitum, they weigh what has 
happened to military personnel and others who are so committed, 
the people like you who have done what they have done, how 
would you express the value of this to American citizens, since 
you are right there on the ground, as they look at these types 
of incursions, and how it affects our national interests?
    Mr. Sampler. Senator, thank you for a very broad question. 
I appreciate the opportunity to respond, and I will yield to 
Rick as well for part of the remaining time, if you will permit 
it.
    My response is this. The Human Development Index, which 
development professionals around the world use to rack and 
stack countries in where they stand in terms of human 
development needs, Afghanistan is 171st out of about 185 
countries. So that puts them somewhere in the middle of the 
countries that we work in in Africa where our expenditures are 
nowhere near the $5 billion mark, but they are very serious 
expenditures.
    So I can make an argument as a development professional, or 
as just a humane person, that we are investing in Afghanistan 
to improve the quality-of-life for Afghanistan in ways that 
they desperately need.
    Now, overlaying that with our national security interests, 
coming from a military background and a military background 
very much focused on countering insurgency, ungoverned spaces 
are the worst possible thing that we could allow to re-emerge.
    So supporting the Government of Afghanistan in their 
ability to govern their own space, and to do that proactively 
to prevent insurgencies, rather than having to counter them, 
is, in my opinion, a good investment.
    It is expensive to work in Afghanistan. It is a long way 
away. The roads are terrible. The airports are not terribly 
good. It costs a lot of money.
    And every time I go home to Stone Mountain, Georgia, I have 
to explain to my 83-year-old father why this is more important 
than fixing the bridge out back--and Senator Isakson, I 
apologize--but fixing the bridge out back in Georgia.
    How we spend this money in Afghanistan does make a 
difference, and it makes a difference in my home State of 
Georgia as well.
    The Chairman. Thank you very much.
    Senator Barrasso?
    Senator Barrasso. Thank you very much, Mr. Chairman. I 
share your concerns. I share concerns that Senator Cardin 
expressed with regard to corruption.
    And I think you made a comment about writing a book. A book 
came out yesterday, and the book was called, ``Corruption in 
Conflict.'' This is the Special Inspector General for 
Afghanistan Reconstruction.
    What I hadn't realized is, it says, unlike other inspector 
generals, Congress created this Special Inspector General for 
Afghanistan Reconstruction as an independent agency not housed 
inside any single department, and it is thus able to provide 
independent and objective oversight.
    And if you go through it, as they have reported in today's 
Financial Times, today's Financial Times headline: ``Afghan 
Corruption Worse After USAID Effort, Says Watchdog.''
    So when we talk about fixing a bridge in Georgia versus 
what has happened in Afghanistan, underneath it says, 
``Countless examples uncovered of funds going to waste in 
malpractice.''
    It says, ``It is this endemic corruption that poses an 
existential threat to Afghanistan and to U.S. policy 
objectives.''
    So, Mr. Chairman, I want to just ask some questions based 
on what we see here, to have you comment on some of the things 
that are in the report that has just come out from the special 
inspector general.
    So the inspector general concludes, and so I ask do you 
agree, quote, ``Corruption undermined the U.S. mission in 
Afghanistan by fueling grievances against the Afghan Government 
and channeling material support to the insurgency,'' because we 
are talking about political objectives here, security 
objectives, trying to work the reconciliation with the Taliban.
    So that is their quote, ``Corruption undermined the U.S. 
mission in Afghanistan.'' Either one of you.
    Ambassador Olson. Yes. Thank you, Senator.
    I think, first of all, we appreciate the work that the 
SIGAR has done, and we thank them for broaching the 15-year 
history with a lessons learned approach on corruption. And I do 
not think anyone would doubt that corruption is a huge 
challenge in Afghanistan. I mean, President Ghani has himself 
acknowledged it as one of the foremost challenges.
    I would just say that we agree with the analytical 
assessment that corruption undermines governance and can, in 
certain cases, even help to fuel the insurgency.
    What I would say is that with the Ghani government, we have 
a committed partner on anticorruption. And President Ghani has 
taken a number of steps.
    He took action to seek to finally clean up the Kabul Bank 
scandal, which was such a dramatic example of corruption and 
malfeasance. Last year, he canceled a huge fuel contract 
because of allegations of impropriety. And as my colleague 
Larry mentioned, he has set up the Monitoring and Evaluation 
Committee, MEC, with outside experts, leading outside experts 
on anticorruption, who have come in to work on this.
    So I think anyone would have to admit that this is a work 
in progress, but I think it is a dramatically different 
situation from what it was prior to 2014.
    Senator Barrasso. Well, I will go to you with the next 
quote from the report and ask you to comment on that. ``The 
United States contributed to the growth of corruption by 
injecting tens of billions of dollars into the Afghan economy 
using flawed oversight and contracting practices, and 
partnering with malign power brokers.''
    I mean, that is from the report. So I would just ask you if 
you would want to comment on that, and your thoughts because of 
your long history. You have been to Afghanistan 60 times over 
the last 15 years. I mean, it is a remarkable commitment and 
service to the country. This is a concerning report.
    Mr. Sampler. Yes. In general, I have gone on the record and 
under oath multiple times saying how much I appreciate the 
value of GAO inspectors general and the special inspector 
general.
    What I will say about this report is I do not find it 
particularly helpful to be reminded that corruption is a 
problem. USAID identified corruption in Afghanistan in 2004. We 
did a fairly grand assessment of corruption in Afghanistan 
then, and it has been a part of our onward planning ever since.
    I do very much appreciate every opportunity to bring 
attention to corruption in Afghanistan, because that is my 
remit. But USAID deals with problems very similar to this all 
over the world.
    To your question about we created corruption by the 
infusion of money, one of the things from Mr. Sopko's remarks 
yesterday likened corruption to cancer. And I think that is a 
good analogy, because once it is in the system, it is really 
hard to remove. You have to catch it early because the remedies 
to eliminating cancer are incredibly painful and in some cases 
are more debilitating than the cancer itself.
    For example, refusing to work with malign actors. Now, 
defining individuals as malign actors is its own problem that 
Ambassador Olson will deal with. But who you choose to deal 
with and not deal with creates enemies within the state and 
enemies to the state that in some cases are as much a threat as 
the cancer.
    So Ambassador Mike McKinley, who is doing a fantastic job, 
must balance the support to the Government of Afghanistan as 
they work to eradicate this cancer of corruption in the country 
with the political requirements to be as inclusive as he can to 
make sure that he is able to bring stability to his country.
    I tell my staff all the time, if this were easy, the Boy 
Scouts would have done it 10 years ago. This continues to be 
something we wrestle with, but USAID does this well around the 
world and will continue to focus on it in Afghanistan.
    Senator Barrasso. Thank you, Mr. Chairman. My time has 
expired.
    The Chairman. It is an interesting observation you make. 
The conflict that existed from the very beginning with 
President Karzai publicly alluding to the alleged suitcases of 
cash that were delivered to him by our intelligence agencies 
from day one and continued throughout his administration, 
according to him in public reports. These are alleged 
statements.
    But it fuels the very thing that Senator Barrasso is 
alluding to and certainly undermines when people are so aware 
of it. When you have a President of a country publicly stating 
that we are delivering suitcases of cash, it really undermines 
our situation.
    I understand the conflict that you are alluding to.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Thank you both for your service.
    I want to continue on Senator Barrasso's reference to the 
report. And I understand that some of these things are hard, 
but even Boy Scouts, especially when they are an Eagle Scout, 
can get some things done.
    And so let's move on to some of the other major points that 
were--it says that we were slow, the U.S. Government is slow to 
recognize the magnitude of the problem, the role of corrupt 
patronage networks, the way it threatened core U.S. goals; that 
even when the United States acknowledged corruption as a 
strategic threat, security and political goals consistently 
trumped anticorruption actions; and when the United States 
sought to combat corruption, its efforts only saw limited 
success in the absence of sustained Afghan and U.S. political 
commitment.
    So as someone who has been very supportive of our efforts 
here and its resources, this undermines my sense of commitment, 
because, you say, Mr. Sampler, that we recognized it in 2004. 
That is 12 years ago. So more than a decade later, I do not see 
a lot of greater success in this regard.
    That is why, working with Chairman Corker, I authored 
legislation that the Senate passed in April to address many of 
these concerns that laid out this in a number of other 
quarterly reports as mandated by Congress. Almost all have 
indicated that, without addressing core governance issues, our 
efforts there will be a failure.
    And at its core, the Afghanistan Accountability Act lays 
out a framework for the United States to take meaningful steps 
to work with our Afghan interlocutors to tackle the roots of 
corruption; to develop clear accountability benchmarks 
supporting the Afghan legal system; to better oversee property 
rights and asset management; and, in certain cases, impose 
specific penalties on persons who are knowingly involved in 
direct acts of mismanaging or misappropriating U.S. assistance.
    Unfortunately, the House has not taken up this legislation 
yet. However, the essence of trying to establish sound metrics 
when we are talking about billions of dollars of the U.S. 
taxpayers' commitment to Afghanistan should not need an act of 
Congress at the end of the day, although I certainly will 
continue to push for that. So my questions are in this regard.
    I do not get a sense that we have made progress in 
institutionalizing any of these commitments. We seem to have 
tried the capacity approach for the past 15 years. So it seems 
to me that while I have always heard we need to build capacity 
and accountability, I think it is time to look more seriously 
to the accountability side of this question.
    And so my question to you is, are we making progress? And 
do not give me a generic answer. Give me specifics of 
institutionalizing these commitments.
    How can we effectively hold those officials who engage in 
these practices accountable? And what is the threshold for 
taking real steps to improve good governance and develop 
anticorruption efforts?
    Mr. Sampler. Senator, thank you for your question and for 
the attention that your legislation draws to this very thorny, 
very complicated issue of corruption.
    I should note, when I mentioned that in 2004 we did a study 
of the state of corruption in Afghanistan, and discovered that 
corruption was, in fact, endemic, there were no institutions in 
place to fight it. They had had their emergency loya jirga. 
They had a constitutional loya jirga. They had not yet, I 
believe, at that time even had their first presidential 
election.
    So the institutions being built in Afghanistan are nascent 
institutions even now.
    I frequently, when I speak publicly, talk about the state 
of play in the United States when our Nation was 14 years old. 
We had not, of course, even dreamed of giving women the right 
to vote. You know, we had serious problems ourselves with 
collecting revenue, with managing our debt.
    In Afghanistan, specifically things that have been done, I 
am very pleased with the work of the MEC. I mentioned it 
previously. Five ministries have signed up in an agreement with 
this Monitoring and Evaluation Committee that they will examine 
their own ministries and they will publicly air what is found 
in those examinations, and they will publicly address what they 
need to do to correct it.
    Second example, the public utility, the Afghan equivalent 
of a Georgia Power or a Duke Power Company, when we were 
working with them to provide resources to help them build their 
electric grid, we identified I believe the number was 56 very 
specific vulnerabilities to corruption in the utility 
structure.
    Now, again, this utility was created in 2009 basically from 
scratch. Its first 2 years it required significant federal 
subsidies from the Government of Afghanistan. It is now in the 
black and generating revenue that it reinvests.
    They addressed all 56, or whatever the specific number was, 
of the vulnerabilities that we identified in a way that 
satisfied us, so we began giving them money.
    That is an important point. We incentivize our investment 
in Afghan institutions by requiring them to make the necessary 
adjustments to meet Western standards.
    The final point that I will make, Afghans are very upset 
with corruption. The Afghan public is very upset. The Asia 
Foundation survey every year raises the issue of corruption.
    And the way that I respond when I talk to Afghans is there 
are two elements to fighting corruption, and a third 
observation.
    The observation, it is going to take a decade. You cannot 
turn corruption around overnight.
    The first requirement is strong institutions. President 
Ghani, as the Ambassador has alluded, is building those 
institutions.
    And the second is political will. And the one thing that I 
think we have in spades now that we did not necessarily have 
before is political will, not just at the President's level, 
but among the young technocratic ministers and deputy ministers 
and office directors that he has appointed.
    These are Afghans who do not want to tolerate corruption, 
but they need our help in rooting it out and preventing it.
    Senator Menendez. Well, unless we see substantive, actual 
improvement--I mean, the MEC sounds like it is self-policing. 
And if they are true to their commitments, self-policing, I 
guess, can create a positive result. But I am not sure.
    The point is that I do not know what the political will 
here in the United States will be to continue to support the 
Afghans in light of what is going on there with all this now. 
So we are well into over a decade of this type of commitment. 
If it takes another decade, I just do not know what the 
political will be here at the end of the day.
    So the sooner they accelerate their actual actions, it 
doesn't have to be that they are going to be pure overnight, 
but that they are tangible and demonstrable and can be 
measured, then the better the political will will be here. 
Otherwise, persons like myself who have been supportive will 
have a totally different view.
    Thank you, Mr. Chairman.
    The Chairman. Thank you for your comments.
    And I do hope that President Ghani's efforts every Saturday 
morning to himself sit down and micromanage the contract 
letting that is taking place, I hope they will bear fruit.
    I think that Senator Menendez's point is right. I do know 
that Ghani is in a whole different place. You would think some 
low-level bureaucrat would be doing it, but he is doing it 
himself. And I hope that will bear fruit.
    With that, Senator Isakson, who seems many times to have 
distinguished Georgians who are presenting, but thank you for 
being here.
    Senator Isakson. We are very proud of the contributions all 
Georgians make.
    Particularly, Mr. Sampler, we thank you very much for your 
service to the country and particularly the 15 years working in 
Afghanistan. It is a real tribute to you and a tribute to the 
country.
    Are you going to be retiring to Georgia?
    Mr. Sampler. Sir, I can only wish. I will be taking a 
position somewhere else in the country.
    Senator Isakson. Well, if it ends up in Georgia, we would 
love to have you register to vote by October the 8th. 
[Laughter.]
    Mr. Sampler. Be assured that you have my dad's vote.
    Senator Isakson. Tell him anything we can do to help him, 
let us know.
    You made a comment early on in your testimony, answering a 
question I think of Senator Corker, that we are there, talking 
about the work of USAID and what we have been doing in trying 
to get girls in school, change some of the things that need to 
be changed on the ground in Afghanistan.
    And if we are there, in that definition, with the exception 
of some areas that are controlled I know in a minority way by 
the Taliban and others, is it going to take the $5 billion that 
Mr. Olson referred to that we are investing into the Afghan 
military and the Afghan Government every year for us to stay 
there, in your definition of being there?
    Mr. Sampler. Senator, thank you for letting me clarify.
    I do not want to communicate in any what that we have 
finished our work in Afghanistan. As I indicated, they are 
still 171st out of 183 or 185 countries on the Human 
Development Index.
    By being ``there,'' what I mean is Afghans have seen the 
light at the end of the tunnel and there are Afghans who live a 
much better life than they did before.
    The fact that we have been able to reduce, for example, 
maternal mortality by over 50 percent is a fantastic statistic 
in aid circles. But that 50 percent is still an incredibly 
large number, the remaining problems of maternal mortality. The 
number of midwives that we have provided to allow women to have 
safe births or at least accompanied births, which they did not 
have before, is a remarkable accomplishment.
    And Afghan women would say this is tremendous, but it is 
not yet a standard that we should be satisfied with.
    I cannot comment on what the costs will be in the years 
going forward. I think, in Afghanistan, everything is tied to 
reconciliation and to the resolution of the ongoing conflict. 
But I do think that as a development professional, and as my 
work in the past years on planning for the future, I would see 
USAID being engaged in Afghanistan in a meaningful way for a 
number of years, as long as we enjoy the support of the U.S. 
Congress and the U.S. people.
    Senator Isakson. On that point, one of the things that I 
was hoping I could point to, and you kind of led me to that 
point, I hope your successor, who I think is behind you--is 
that correct? We wish your successor the very best of luck in 
his endeavors.
    One of the things we need is for you all to be looking to 
the future in terms of answering that question of what it is 
going to take from us to support what you have done so far and 
to sustain it in the country of Afghanistan.
    We learned in Iraq with Provincial Reconstruction Teams, 
soft power, use of the United States military, a tremendous 
investment, we brought Iraq to peace. They wrote a 
constitution. They voted three times. And then we left and the 
support mechanism left, and Iraq became a headquarters for 
ISIL. We do not want the same thing to happen in Afghanistan.
    So knowing what road map it is going to take with honest 
assessment, to keep the success you have made and build on it, 
is going to be important for us to know. And I hope your 
successor will work with us, giving us some idea of what that 
really will be.
    Mr. Olson, I believe the ISIL affiliate in Afghanistan is 
called ISKP. Is that correct?
    Ambassador Olson. That is correct, sir.
    Senator Isakson. What is their strength in Afghanistan?
    Ambassador Olson. We believe that they have a few thousand 
fighters, 1,500 to 2,500, mostly concentrated in Nangarhar 
Province in the east. They are actively being fought against by 
the Government of Afghanistan, and, of course, our own forces 
are carrying out airstrikes against them.
    Senator Isakson. Are they coordinated in any way with the 
Taliban?
    Ambassador Olson. No, sir. In fact, the Taliban and Daesh 
have been fighting each other, at least in Nangarhar Province. 
They have not, to the best of our knowledge, joined forces. 
They oppose each other.
    Senator Isakson. Do they have a stated goal, Daesh? Do they 
want to just disrupt Afghanistan? Or do they have a goal that 
they want to take Afghanistan over?
    Ambassador Olson. Well, I think one of the differences 
between the Taliban and Daesh is that Daesh has, in fact, a 
global agenda, the advancement of the caliphate, and the 
Taliban traditionally has focused its objectives purely on 
Afghanistan and has not had extraterritorial ambitions.
    I do think that it is important to note that Daesh in 
Afghanistan is largely the result of TTP. That is to say, 
Pakistani Taliban people who are pushed out of North Waziristan 
with the successful operations Pakistanis have conducted in 
North Waziristan, they went to the other side of the border, 
and many of them have sworn allegiance to Daesh. And that is, 
in many ways, the basis of the organization in Afghanistan.
    Senator Isakson. Thank you for your answer, and thanks to 
both of you for your service to the country.
    The Chairman. If I could interject, is it still the stated 
goal of the administration and of Ghani himself to solve the 
internal differences that exist there through an inclusion, a 
negotiated inclusion, of the Taliban in the government?
    Ambassador Olson. Senator, yes. We do believe that, 
ultimately, the peace of Afghanistan will require a political 
settlement. And I think the way I look at it is there is a very 
longstanding conflict in Afghanistan that has been going for 40 
years, and the sides have changed considerably over those 
decades.
    But at the core, there is an internal conflict about the 
future of Afghanistan that is going to have to result by 
Afghans talking to Afghans.
    That is not to suggest there is not an external element. 
There certainly is, and I would readily concede that.
    But our belief is that it will be necessary to bring about 
a political settlement to have the Taliban come to the table, 
and this is why we have repeatedly called for, both 
unilaterally but also through various multilateral mechanisms, 
for the Taliban to come to the table.
    Unfortunately, they have so far not been prepared to do 
that. This was an important factor in the President's decision 
to take the action that he did against Mullah Mansour earlier 
in the summer.
    So we continue to believe that that will be the way 
forward, and that is the belief of President Ghani as well.
    The Chairman. I look forward to following that up on the 
second round.
    I will say that while I abhor Pakistan's activities and 
find their duplicity hard to take, and my sense is you are 
going to see a lessening degree of support for Pakistan over 
time as a result, in the many ways, because they know that our 
end goal is to negotiate with the Taliban, that feeds some of 
the duplicity they are carrying out too because they are 
hedging their bets.
    But with that, Senator Udall?
    Senator Udall. Thank you, Chairman Corker.
    And thank you both for your service in what is an awful 
difficult situation there in Afghanistan.
    Mr. Sampler, you used the metaphor that corruption is like 
a cancer, and as you know, when we tackle a cancer, we have to 
do it very quickly or the cancer wins. And I just am a little 
bit disturbed when we talk in terms of 10 years and long 
periods of time, in terms of getting hold of corruption and 
really knocking it out.
    And one of the areas that it seems to me that is the most 
effective is removing people from office, prosecuting 
officials, letting people know there is a deterrent, a really 
strong deterrent.
    Can you tell us how many people have been removed from 
office, how many people have been prosecuted? Is there a strong 
prosecutorial agency? Are they reviewing cases?
    You know, we have had a number of years, as you have 
pointed out, that we have known the corruption is there. But 
what is actually happening on the ground in terms of acting 
upon the individuals. As the chairman talked about, suitcases 
of cash and all of those kinds of things, if that is happening, 
something ought to be done about it in terms of the 
institutions there.
    Mr. Sampler. Senator, thank you for the question and the 
observation.
    I have learned in my last hearing, I will not ever in 
hearings again use metaphors because they can get out of your 
control quickly.
    Your point about catching corruption early is correct, and 
I would argue especially at the higher levels of government. 
Leadership leads by example. And if there are in the higher 
echelons of government corrupt officials, that breeds 
corruption and it trains younger officials to be corrupt in 
their own right when it becomes their term.
    One of the things that President Ghani has done quickly in 
his term of office is he has seized the reins of corruption at 
the senior levels to the best that he can, recognizing, as I 
alluded to earlier, that he has challenges with respect to 
inclusive governance, and there are political consequences for 
firing certain individuals that he has to consider, but he has 
done it.
    Senator, I am happy to take as a QFR your specific question 
about numbers of individuals. I do know we have that. I do not 
have it on the tip of my tongue.
    But, in a general sense, President Ghani has relieved, I 
believe the number is over 30 customs officials in a specific 
instance where he learned of endemic corruption. And he has 
created panels within the parliament, both a general 
parliamentary panel on corruption and a women's parliamentary 
council on corruption, that is also empowered to take action.
    But I will take details as a QFR.
    Senator Udall. Yes.
    Ambassador Olson?
    Ambassador Olson. If I may just add one point?
    President Ghani has also removed more than 90 generals from 
the Ministry of Defense rolls. Now that was not necessarily 
specific for corruption, but the individuals were removed for 
inefficiency and ineffectiveness. But I think it does help to 
establish the principle of accountability that is so important 
to anticorruption efforts.
    Senator Udall. Has anybody gone to jail?
    Ambassador Olson. There are individuals from Kabul Bank who 
are in jail, yes.
    Senator Udall. Great.
    Now the whole issue of corruption, it raises the question: 
What is more of a threat to the long-term stability of 
Afghanistan? Is it the current inability of the Afghan 
Government to deal with its own internal struggles, i.e., 
corruption, or is it ISIS, Al Qaeda, the other group you 
mentioned, or the Taliban? How do you see that, in terms of the 
long-term stability?
    Ambassador Olson. Well, I think that there is no question 
that what preoccupies most Afghans on a day-to-day basis, and 
what preoccupies the government, is the security threat from 
the insurgency, that is to say from the Taliban.
    I think that, overall, the Taliban have thrown everything 
they could at the government for 2 years now, for two fighting 
seasons, 2015 and 2016, and they have not succeeded. They did 
briefly take Kunduz, but they have not taken any provincial 
capitals this year. And the Afghan forces have been fighting 
back very effectively.
    Given the effectiveness of the Afghan defense forces, I 
think that the Taliban have resorted to outrageous terrorist 
attacks in the cities, which, of course, garner enormous 
attention. But those are, generally speaking, against very soft 
targets.
    So I think that the people of Afghanistan are genuinely 
concerned about the insurgency. I think they would see that as 
the first and foremost amongst the threats. It is also one of 
the reasons that there is such a yearning for peace in 
Afghanistan.
    Senator Udall. Thank you very much. Thanks for your 
service.
    The Chairman. Thank you.
    Senator Flake?
    Senator Flake. Thank you. Thank you for your testimony.
    A couple of years ago in the House, myself and another 
Member on the Government Reform Committee looked into some of 
the contracts that we had with Afghanistan. And at that time, a 
big percentage of the funding that was going were trucking 
contracts with the Afghans for movement of fuel and supplies to 
forward operating bases, in particular.
    With a diminished presence there, that requirement has gone 
down quite a bit, I understand. But that was identified as an 
area of deep concern, I know, at that point.
    The allegiance of those with whom we were contracting, 
basically to protect our supplies moving forward and to move 
those supplies, was fleeting at best, to put it mildly. With 
Taliban one day, and with us the next, it seemed.
    Is that still a concern? And how much or what percentage of 
the funding with regard to defense funding is still going in 
that direction? I know you may not be aware of some of these 
figures, but can you give me the best estimate you can?
    Ambassador Olson. Well, Senator, with regard to Department 
of Defense funding, I would have to take that question and get 
back to you because that is obviously the responsibility of my 
colleagues at the Department of Defense.
    What I can tell you is, and I was the assistance 
coordinator at the U.S. Embassy during the time I think you are 
talking about, and there was a great deal of concern about 
contracting, and efforts were made to greatly improve vetting 
of the various contracts to make sure that no U.S. funding was 
falling into the hands of malign actors.
    As you correctly state, that is, I think, less of an issue 
now in part because of the diminished size of U.S. forces. I 
would say there continues to be a great emphasis on fuel. And I 
know that General Nicholson has spent a lot of time addressing 
the question of fuel contracts to ensure that they are 
completely clean and administered in a way that doesn't 
encourage any corruption.
    But of course, I would have to refer you to the Department 
of Defense for the specifics on those particular contracts.
    Senator Flake. Yes?
    Mr. Sampler. Senator, with your permission, I will add, in 
specific response to some of the early issues, the U.S. 
Government developed programs of what we call vetting, as the 
Ambassador alluded to, and I can give you numbers on vetting 
since 2011.
    USAID specifically has vetted 7,318 potential partners to 
receive our funding since March of 2011. And from that, 300 
have been determined ineligible.
    Now that may not mean they were criminals, but it means 
that we found something that made them not eligible to receive 
our funding. And the amount of money that may have protected is 
in excess of $670 million.
    So we took the threat of that particular corruption very 
seriously and now systemically across the government, and I 
might add in other countries as well, we are looking at how we 
examine the backgrounds of the individuals in these 
organizations with which we work.
    Senator Flake. Well, thank you. The concern was, and this 
applies--obviously, the numbers are bigger on the defense side, 
but it applies to other contracts as well. The concern at that 
time was that so much of that funding was actually being used 
against us later.
    Like I said, these were big numbers, huge numbers in terms 
of these contracts.
    But I am pleased that it seems the vetting process has been 
stepped up, because it was quite clear at that point that a lot 
of the money used to acquire weapons and to launch attacks was 
actually U.S. money that had been turned around because of 
insufficient vetting.
    And I understand you have to deal with unsavory actors here 
a lot, less so now with the diminished presence. But I just 
hope that we are making sure that our funding ends up where we 
want it to go and not being used against us.
    Thank you.
    The Chairman. Thank you.
    Senator Murphy?
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you both very much for your incredible service.
    Ambassador Olson, we often use the number of 8,400 U.S. 
troops to talk about our presence inside that country. But for 
any of us that have spent time there, and, of course, you, well 
know that that number of U.S. support personnel is actually 
much larger. We obviously have a big nonmilitary civilian 
contracting footprint.
    Do you know offhand what the number is of U.S.-supported or 
U.S.-paid-for personnel that are on the ground today in 
Afghanistan, beyond just that number of 8,400 troops?
    Ambassador Olson. No, Senator, I do not have a number for 
the number of contractors who would be supporting either DOD or 
State. I can give you the numbers for the U.S. Embassy. You 
have about 670 people, Americans at the U.S. Embassy, in 
addition to the 9,800 who are serving with the U.S. military.
    But we would have to get back to you on the total number of 
contracts there.
    Senator Murphy. I simply raise it because I think we use 
the wrong metric when we try to understand our presence there. 
We have transferred some fairly significant functions away from 
U.S. troops to private contractors who are doing things that 
troops used to do there. And so our footprint is much bigger, 
and we, frankly, have a lot more Americans at risk than just 
that number 8,400.
    The Chairman. If I could, if you do not object? Would the 
order of magnitude be maybe triple the number that we have 
military, just to give an order of magnitude?
    Ambassador Olson. Senator, I am really reluctant to guess 
on this number. I do not have a sense----
    The Chairman. I apologize.
    Ambassador Olson [continuing]. Of the number of 
contractors.
    The Chairman. My guess is that would be a minimum.
    Senator Murphy. That is my guess.
    Ambassador, can you talk about what you see as the future 
vision for U.S. military presence in Afghanistan, whether you 
see this as a movement toward a day in which there are no U.S. 
troops, no U.S. military presence? Or should we be thinking 
about Afghanistan more like South Korea, in which we are going 
to have a constant presence there to help underwrite and help 
advise the Afghan military forces? And what is your 
recommendation to the administration on that question?
    Ambassador Olson. Yes. Well, I think as we are thinking 
about transitions of administrations, of course these are the 
questions that will come to the fore. And President Obama, with 
his decision on keeping 8,400 troops in place, wanted to leave 
as much room as possible for his successor to make decisions 
about overall levels of U.S. troops.
    I think that I will give you my own personal view that 
there are essentially two models, I would say, for how we can 
be looking at the future. One of them is essentially a long war 
in which we do have a long commitment of some number of troops, 
whatever that number may be I think would be open to debate. 
But the other option is to pursue a political settlement, is to 
pursue reconciliation.
    I do not think that that is necessarily something that 
needs to be done on an immediate time frame, and it certainly 
needs to be done in accordance with our core principles. And we 
have established those with regard to reconciliation, that any 
agreement has to, at the end of the day, involve the Taliban 
breaking with Al Qaeda and international terrorism; with 
ceasing violence; and with coming under the Afghan 
constitution, including respect for minorities and women.
    So I think that, if I may, just thinking in terms of future 
military presence, I think the way we should be thinking about 
this is that our military hardening of the Afghan state puts 
them in a position to arrive at a political settlement that 
safeguards the investments that we have made.
    Senator Murphy. But that assumes that the Taliban is 
interested in a political solution.
    Do you worry that it is just simply not in the DNA of the 
Taliban to compromise, that we are not talking about a 
political party? We are talking about a social, cultural, and 
religious movement that may be totally incapable of doing what 
we are asking them to do, which is essentially get one-quarter 
or one-half of what they want, to power share.
    That doesn't suggest to me the kind of organization that 
really, in the end, is capable of entering into a political 
settlement. And if that is the case, then a strategy which 
assumes that eventually they will fold in is one that will 
never turn out the way we want it to.
    Ambassador Olson. If I may, Senator, I think that is an 
excellent question, and I think we do not know the answer to 
the question.
    I would say that, as a diplomat, this is a proposition that 
we would need to test, whether the Taliban are prepared to come 
to the table and to talk.
    What I would say is that there is an enormous war weariness 
in Afghanistan on both sides, and I think that is very evident. 
It is evident amongst the Afghan people who are, I think, 
absolutely ready for a peace settlement and for reconciliation. 
And if that widespread desire can be translated into attitudes 
on the part of the Taliban that can be changed, I think there 
may be some ground.
    But it is a proposition that has to be tested, sir.
    The Chairman. Thank you.
    Our staff leaned up and said they felt the number was 
probably between 80,000 to 100,000, of additional security, of 
contractors. If you would get back with us with that number, it 
would be good.
    In saying that, I want to say, personally, I lobbied the 
White House to keep the numbers of troops that we had there. I 
am glad the President came up with a number that I think will 
keep stability there. I appreciated the additional authorities 
that were given to the military to give close air support to 
the Afghan military when necessary. I appreciated the 
authorities to go against Al Qaeda that did not exist a year or 
so ago.
    So I do not want any of the questions that I am asking to 
indicate anything other than my support for those decisions 
that have been made.
    I think Ghani is generally a good man and, like all of us, 
has flaws. But I am glad that we have someone who does care 
about corruption. And he is more of a technocrat and certainly 
understands the ways of the world and the IMF and other places. 
And I think Abdullah has significant political skills as a 
human being and just interrelationship kinds of skills.
    That said, again, I want to go back to some of the 
questions I asked Mr. Sampler earlier.
    I mean, regardless of political reconciliation, and I share 
some of the concerns that Senator Murphy just laid out, I mean 
when we created this Afghan military and Afghan police, we knew 
that ad infinitum we were going to be pouring in billions and 
billions of dollars, even with political reconciliation 
occurring.
    I mean, we have a country, as you have mentioned, that is 
one of the poorest in the world. There is all this utopic 
discussion about the minerals they have in the ground, which 
has been utopia for decades. It is not going to happen in my 
lifetime, I know. And I just think it is better for the 
American people for us to understand that once you undertake an 
effort like this, you are talking billions and billions and 
billions and billions of U.S. dollars every single year.
    And so I would get back to, again, somebody who I think is 
a true patriot, Mr. Sampler. And just as we learn about this, 
and obviously it is affecting the American people when they see 
Afghanistan, when they see Iraq, and there is obviously a 
change of thinking in our country among the American people. 
Those of us who are policymakers obviously want to always 
continue to pursue our national interests, but we understand 
the country is changing, or at least has for a while.
    How would you assess, when we go into a place like 
Afghanistan and we determine what we are going to do?
    George Bush 41, President Bush 41, determined when he went 
in in Desert Storm that there was a limited mission, and once 
that was accomplished he stepped back out.
    Bush 43 determined that mission to be something very 
different in Afghanistan and Iraq.
    You are seeing on the ground the effort that it takes for 
this transformation, and certainly good things have occurred. 
But how should we begin to think in a more sophisticated way on 
the front end about these types of engagements, based on what 
you have learned over the last 14 or 15 years?
    Mr. Sampler. Senator, again, thank you for the question.
    The observation I would make, and I make it coming from a 
Special Forces background, is it is much cheaper and much 
better and more humane to prevent insurgencies than it is to go 
in and try to clean them up.
    In Afghanistan, one of the reasons I am such an ardent 
supporter for continuing our engagement is we have seen 
firsthand the consequences of walking away from this region. It 
was the Taliban, and it was 30 years of civil war, and it 
spawned a breeding ground for Al Qaeda, from which they 
attacked the United States.
    So I am an ardent supporter of pursuing stability in places 
like Afghanistan. One of the things I have pledged the agency 
to continue to work on with them is, what should we have 
learned about how we do this the next time around, wherever it 
might be in the world? As an agency and as in interagency, what 
must we be better at to make sure that we are as prepared as we 
can be to bring all the instruments of national power to bear 
to make sure we find the most economical and the most effective 
ways to do this.
    But I really appreciate your observation with respect to 
the time that is required. You may be able to go into 
Afghanistan, as we did in 2001, and topple the government there 
very quickly. But you cannot rebuild the state in an equally 
quick period of time.
    And there is a further confusion in some of the community 
of interest, that if you double the amount of money you spend, 
you will, therefore, double the rate of change in the host 
national government. And I appreciate, too, the growing 
recognition that that is just not true.
    So I guess I would argue for a comprehensive whole-of-
government approach that really does use all the instruments of 
our national power, and then the strategic patience, as you 
have indicated, to be willing to stay the course and make sure 
that the changes we make are permanent.
    I worked in Bosnia in 1995 and 1996 when Richard Holbrooke 
brokered that peace agreement. And at the time, we were very 
pessimistic. And Bosnia certainly is not covering itself in 
glory. The Balkans is a tough place to live and work still. But 
it is a governed space, and it is getting better, and the 
people there live better lives now than they did in 1993.
    If that is all we can achieve in Afghanistan, that might be 
enough for the short run. But I think we need to stay the 
course to make sure that the gains Afghans have made and the 
governance that they are beginning to provide is permanent and 
not reversible.
    The Chairman. Now I am going to turn to Senator Shaheen, 
who I know came from another committee meeting.
    I just will make the observation that I think part of 
entering these conflicts that we know are going to go on for 
decades--I mean what we have done in our country is do so and 
not pay for it. I mean what we have really done is made sure 
that future generations will pay for this, which to me is 
inherently immoral.
    And it seems to me on the front end of these, a decision 
needs to be made if we know we are going to be there spending 
$10 billion a year ad infinitum, that we also create some way 
through cuts in other government services, which obviously the 
American people would pay attention to, or in some other ways, 
revenues, to pay for these undertakings, because we are not 
just committing to something for a long time. Each year, most 
of these resources are being piled on the back of our young 
people that, down the road, are going to pay the price, not us, 
but people down the road.
    With that, Senator Shaheen?
    Senator Shaheen. Well, thank you, Mr. Chairman. And I would 
agree. I think you point out that what we have done is we have 
let the American people think that we can do these kinds of 
interventions without any cost to America, and that is a 
dangerous precedent to set.
    But I want to begin by thanking you, Ambassador Olson and 
Mr. Sampler, for your service in Afghanistan and to the 
country, and wish you well in whatever you are doing next.
    I have really two questions. My first is a very specific 
one.
    As I know you both know, without any action from Congress 
to authorize additional visas for the Afghan Special Immigrant 
Visa program, not only will that program expire but thousands 
of Afghans who have provided valuable service to our Embassy 
there, to our men and women who have served, will be denied 
access to this country and be exposed, themselves and their 
families, to great danger. Many of them already are.
    So I want to ask both of you if you could talk about how 
important it is for Congress to take action to extend the SIV 
program for Afghans who are still in the pipeline, and to talk 
about what a difference that has made to our mission there on 
the ground.
    So, Ambassador Olson, do you want to begin?
    Ambassador Olson. Yes. Thank you, Senator, for your 
question.
    Let me say that the State Department is fully committed to 
the Special Immigrant Visa program. We consider it, frankly, a 
moral responsibility to our employees who have been prepared to 
put their lives at risk by their association with us.
    And, Senator, you are indeed correct that without an 
infusion of visa numbers, we will very shortly be exhausting 
the ability to issue visas, whether it is to individuals who 
served with our Armed Forces or our locally engaged staff at 
the U.S. mission.
    So I would not offer any specific commentary on the various 
pieces of legislation that are currently under consideration, 
except to note that we do believe the need is real and would 
encourage the Senate and the House to act on it.
    Senator Shaheen. Mr. Sampler, do you have anything to add 
to that?
    Mr. Sampler. Yes, ma'am. I will endorse the Ambassador's 
observation.
    I will say that I look forward to the day when the Afghans 
do not feel the need to flee Afghanistan. The brain drain that 
this creates among not just the interpreters but the 
professional staff at our Embassy who leave after serving just 
2 years and are now in the United States is significant. I 
mean, it has been discussed in the Government of Afghanistan 
that as soon as we can reverse the security concerns and give 
these people a sense of confidence that they can stay, that 
will, I think, be a significant success.
    But in the short run, I very much support the SIV program. 
I have colleagues who have worked with and for me in 
Afghanistan who are either in the United States now or hope to 
be because of the SIV program. And so I very much appreciate 
that Congress is willing to offer this and the willingness to 
extend it.
    Senator Shaheen. Well, thank you both, and I do appreciate 
the efforts of the State Department to make sure that this 
program has worked and worked more expeditiously to help those 
who are in real danger.
    And it is disappointing to me that we have had a few people 
in the Senate and in the House who have blocked something that 
has been very important to our efforts on the ground in 
Afghanistan.
    My second question is really a much broader one. Just 
reading and listening to media reports in the last months about 
discord between President Ghani and CEO Abdullah; about Taliban 
incursions into Helmand and into Nangarhar provinces; about the 
recent very high profile death of one of the police chiefs who, 
at least from all news reports, was not corrupt and who was 
working hard to address the dangers of the Taliban, it is hard 
to read all of those reports and have a rosy view of the good 
work that has gone on in Afghanistan.
    And I appreciate both of you talking about progress that 
has been made, but it does raise concerns about what the future 
holds. And so I wonder if you could talk about how we should 
view the future, given some of the reports of what we are 
seeing?
    Ambassador Olson. Yes. Thank you, Senator.
    I agree with you that it is important not to be rosy eyed 
on this, but I do think that, in particular, the security 
situation is not quite as dire as it is sometimes presented 
through media reports. And I am not saying that to be critical 
of the media, but it is just simply the nature of the news 
cycles.
    The fact is the Taliban for the last 2 years has thrown 
everything it had against the Afghan forces. And with the 
exception of the brief fall of Kunduz last fall, the Afghan 
forces have held.
    In fact, under General Nicholson's leadership, they have 
taken much more offensive actions and are much more mobile and 
less tied to checkpoints. Many of the incidents that you are 
describing are actually the overrunning of checkpoints.
    For instance, in Urozgan Province recently, there were 
reports that the capital Tarinkot had fallen. That was not 
true. What had happened is certain checkpoints on the outskirts 
of Tarinkot, which is a town up in the hills and surrounded by 
narrow roads leading in, had fallen to the Taliban. But the 
city itself was never actually under any kind of direct threat.
    That said, the fighting has been serious, especially in 
Helmand and in parts of the north.
    But again, the key parts of Helmand, that is to say the 
populated districts, the capital, the areas around the Ring 
Road, have continued to hold.
    And I think that the Taliban do control certain parts of 
Afghanistan. That is indisputable. But what they control are 
primarily rural areas with very low population densities and 
remote areas. These are not population centers.
    If you look at the proportion of the country that the 
Taliban hold in terms of population, it is really not very 
significant. And this is, of course, given that the five major 
cities of Afghanistan have over the course of the past 15 years 
become huge cities in Afghan standards, Kabul probably being 2 
million to 5 million people when it was traditionally a city of 
200,000.
    So I do not want to be overly optimistic, but I do think 
that the Afghan forces are holding, despite some real 
casualties. And with our continued support, we believe that 
they will be able to withstand whatever the Taliban has been 
throwing against them.
    On the question of the government of national unity, it is 
a challenge. This is not a country that has a tradition of 
coalition government ever. It has a long tradition, frankly, of 
very authoritarian, centralized, one-person rule. And so there 
are challenges to making the government of national unity work. 
And there are some recurrent challenges that have come up 
recently, of which I am sure you are aware.
    Our sense is that both President Ghani and Dr. Abdullah, 
with whom--I have been out to Kabul twice within the past 
month. I have met with both of them repeatedly. My sense is 
they both recognize the importance of unity, of inclusive 
government.
    There are some tough political issues, frankly, that divide 
them, but we are working with them to continue to keep the 
process on track.
    Senator Shaheen. Can I ask a follow-up?
    The Chairman. Sure.
    Senator Shaheen. You talked about the significant losses to 
the Afghan forces, and I have heard that they have lost 
thousands of people. So how much is this affecting their 
ability to continue to recruit and to replace all of those 
people who have been lost?
    Ambassador Olson. Well, Senator, I do not mean to duck the 
question, but it would probably be a question that would need 
to be referred to my DOD colleagues. I think they would 
probably have the precise numbers on that.
    My sense, from having been out there and from having talked 
repeatedly to General Nicholson and others, is that while the 
casualties are severe--first of all, they are not as 
significant as the casualties that the Taliban are taking. I 
mean, I think that is an important point to remember, that the 
Taliban casualties are particularly severe.
    And so far, I think it is safe to say that the recruitment 
efforts have not been hampered, and there is some important 
advantages that the Afghan forces have right now, particularly 
the use of air power, which gives them a big advantage and a 
morale boost over the Taliban. The Afghans now are flying A-29 
Super Tucanos. The Afghan Air Force is actually conducting 
airstrikes. And of course, we have provided helicopters, MD-
530s, which are being used quite effectively. And I think that 
has a really important effect on the battlefield because, of 
course, that means that their enemy cannot mass. And I think it 
also is a great boost to the morale.
    Senator Shaheen. Okay. So I have a State Department 
question for you. Do we expect President Ghani to call 
parliamentary elections?
    Ambassador Olson. The timing of elections will have to be 
up to the Afghan Government to decide.
    We think what is really important in the near term is that 
the Government of Afghanistan agree on what electoral reforms 
are absolutely necessary to conduct elections as soon as 
possible, because I think there is a widespread consensus that, 
after the 2014 election, reforms are necessary. There are 
issues that are under consideration right now, consideration of 
electronic I.D. cards, of the question of constituencies. And 
naturally, constituencies raise questions of redistricting, 
which is as controversial in Afghanistan as it is in the United 
States.
    So these are important issues that they are going to have 
to get through. But we think the important thing is for them to 
actually come up with a reform package and agree on it.
    Senator Shaheen. Thank you. Thank you, Mr. Chairman.
    The Chairman. I will say, in reference to one of your 
questions, there is a 30 percent turnover rate in the military 
each year. So the Special Forces, I think, have done an 
outstanding job at performing, but the rest of the regular 
Afghan military does have significant turnover.
    As far as the gains that have been made, a big part of that 
has been with the close air support that we have been able to 
give too. Is that correct?
    Ambassador Olson. Yes, that is correct, sir. Of course, I 
am well outside my lane, in terms of offering military----
    The Chairman. You are only there because the civilian 
military leaders just couldn't get it together, unfortunately.
    But that is true, what I just said, right?
    Ambassador Olson. Yes, sir. General Nicholson, of course, 
has under his authorities the ability to provide air support to 
carry out a strategic effect, and he has been using those 
authorities quite effectively.
    The Chairman. And those are new authorities.
    Ambassador Olson. That is correct, sir.
    The Chairman. When do we expect the Afghans themselves--I 
know that they are gaining ground as it relates to the air 
service, but when will we expect they can totally displace us, 
if you will, on those types of activities?
    Ambassador Olson. Sir, I would really think that I could 
not answer that question. That would be one for my Air Force 
colleagues, who are working this issue directly, but we will be 
happy to take it back and try to get you an answer.
    The Chairman. Would it be your observation that, in the 
event the loya jirga were to take up the issue of having a CEO 
and a President today, that it is likely they would vote that 
down?
    Ambassador Olson. Well, the question of the loya jirga is a 
little bit of a complicated one because, of course, the 
political agreement calls for one, but it called for a 
constitutional loya jirga, which would require first holding 
parliamentary elections.
    And as I was discussing with Senator Shaheen, there are 
challenges to carrying out parliamentary elections, and that is 
why they have not taken place so far and why the loya jirga has 
not come about.
    The Chairman. I want to understand. My understanding was 
that possibly one of the reasons we are not going ahead with 
the parliamentary piece is we know that, to the extent it was 
constituted, the loya jirga, that, in fact, this shotgun 
marriage that we have created would not exist and would fall 
apart. So it is the sequence that you outlined and not concerns 
about what the aftermath might be.
    Ambassador Olson. Yes, sir. Well, first of all, I mean, 
these are Afghan decisions about whether or not to convene a 
loya jirga.
    The Chairman. I understand that.
    Ambassador Olson. I do not think that the calculation that 
this would proceed one way or the other was the factor. I think 
it was simply the difficulty of reaching consensus on the 
electoral reforms, and therefore agreeing on the electoral 
date, that actually prevented the convening of a loya jirga.
    And it is important to emphasize I am talking about a 
constitutional loya jirga. There also is the option of a 
traditional loya jirga, which is much less predictable, in 
terms of its possible outcomes.
    The Chairman. And I understand President Karzai is playing 
a nefarious role in these issues. Is that correct?
    Ambassador Olson. Well, President Karzai has occasionally 
signaled that he--well, he has signaled that he would favor a 
traditional loya jirga. I think that we would have concerns 
about a traditional loya jirga. But at the end of the day, this 
is up to the Afghans to decide.
    The Chairman. Just one last question. I can tell Senator 
Cardin wants to close with some other comments and questions.
    So the role that you play is--first of all, you being in 
this post is going to end after many, many years of 
distinguished service, which we are all grateful for. But it 
does seem to me that now the whole notion of this AfPak, if you 
will--the scenario that we envisioned at the time is very 
different today.
    I would love for you, if you would, on your way out the 
door, to talk about the strengths of that, of having a person 
in this position and some of the complexities. Again, I would 
think that in some ways it breeds distrust by both countries 
for someone in your position, or could.
    I just wonder if you might make some observations, knowing 
that others will decide whether this position continues?
    Ambassador Olson. Well, thank you, Senator, for giving me 
the chance to address this. It is an important issue.
    I do think having an office like mine that is robustly 
resourced and staffed and able to deal with some of the highest 
priority issues in our foreign policy on a daily basis makes a 
good deal of sense.
    Just to give you some examples, I in some ways am an 
equivalent to an Assistant Secretary of State, but I only focus 
on two countries, but this allows me to focus much more 
intensively.
    As I mentioned, I have been out in Kabul twice in the last 
month. In the 9 months or so that I have been in this job, I 
have been out on a monthly basis almost to Kabul and Islamabad. 
And so that is a level of attention that I think an ordinary 
Assistant Secretary of State would probably not be able to 
attach to one or two countries.
    But I have to say there are challenges to the structure as 
well. The challenge I think that we all come up against is the 
fact that Pakistan, in some ways, when it views itself, sees 
itself much more in terms of its relationship with India. And 
the fact that India and Pakistan are, in the current structure, 
in separate bureaucratic domains can sometimes be a bit of a 
challenge.
    But let me just say that I work extremely closely and with 
great respect for my colleague Nisha Biswal, and we have made 
significant efforts to make sure that that seam is not 
problematic.
    But I think that is a serious concern.
    The Chairman. Senator Cardin?
    Senator Cardin. I want to follow up on Islamabad and 
Pakistan.
    Can you just share with us how helpful Pakistan is being in 
getting the Taliban involved in Afghanistan in the peace 
process, and particularly how their inconsistent--I am being 
generous right now--position in regard to the Haqqani network 
is impacting the ability to have a meaningful peace process in 
Afghanistan?
    Ambassador Olson. Yes. Thank you, Senator.
    Well, first of all, I continue to believe that Pakistan is 
at a strategic crossroads, and it can choose either to act 
against the extremists who have a safe haven on its territory 
and threaten its neighbor, or it can continue to ignore this 
problem.
    If it chooses the former course of action, cracking down on 
the terrorists, it will build regional stability, enhance its 
relations with its neighbors and with the United States.
    If it chooses the latter, it will face, it seems to me, 
increasing isolation and estrangement from international----
    Senator Cardin. Have they made this choice? We have been 
talking about this for a considerable period of time. And at 
least it seems like--again, I am going to be somewhat kind on 
this. They seem to be taking both paths at the present time. 
But many here believe they have already made their decision, 
that they will not go after Haqqani and may even allow them to 
continue to operate for whatever reasons. So they have chosen, 
in many respects, not to go after all terrorist activities.
    If you talk to the Indians, they will tell you the same 
thing is true in regard to the networks against India, 
terrorist organizations against India that are supported at 
least by their presence in Pakistan.
    So I guess my question is, is the jury still out on 
Pakistan? And if it is, how do we influence it to make sure 
they make the right decision?
    Ambassador Olson. Well, I think that Pakistan has taken 
some actions against the Taliban. I mean, in the past few 
months, first of all, they did clean out North Waziristan, 
which was something that we had wanted for many years, 
including closing down----
    Senator Cardin. I agree with that, but is that translating 
into cooperation to get the Taliban into the peace process?
    Ambassador Olson. Well, with regard to the peace process, I 
think it is safe to say that Pakistan made serious efforts to 
try to bring the Taliban to the table. I mean, we know that 
through a variety of means.
    But at the end of the day, the Taliban did not take up the 
offer to come to the table. And I think that is unfortunate and 
regrettable.
    We continue to urge Pakistan to take robust action against 
the Haqqani and against the Taliban. And I think there are 
indications that they have taken some actions, but I do not 
think it would be fair to say that those actions have been 
definitive.
    Senator Cardin. Well, obviously, this conversation has been 
going on for a long time, and it just looks like, when we put a 
major spotlight on them, we get some help. And then at times, 
we are either--there are strategic reasons or political reasons 
Pakistan seems to go in the wrong direction.
    So it is a matter that not only has a direct impact on 
Pakistan, and truly it does, but also, of course, on their 
neighbors.
    Let me just ask one additional question on human rights. 
There are many human rights activists in Afghanistan that think 
that the United States has not been strong enough with the 
human rights monitoring in Afghanistan.
    I would just make that observation again as I did with 
corruption where we had a good discussion here today. It is 
critically important that the United States prioritize the 
human rights progress at every opportunity we can, that we are 
a major player in Afghanistan and that we must have 
accountability if we are going to be able to continue this to, 
we hope, a successful conclusion.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Did either one of you, since you may not have the 
microphone in one of these hearings again, is there anything 
that you would like to say before we adjourn?
    Mr. Sampler. Senator, it has just been an honor. I have 
appeared several times, and each time, I am continually 
impressed with the value of our government and how we do 
things. And it really does encourage me to watch other 
governments where I get the opportunity to work. They look up 
to us.
    And so I very much appreciate the hearing today and the 
other opportunities you have given me to testify.
    The Chairman. Yes?
    Ambassador Olson. Can I come back, Chairman?
    I did want to make one additional point to Mr. Cardin's 
point.
    I think that there has been a subtle shift in the way 
Pakistan is approaching the question of the Haqqanis and the 
Taliban in their conversations with us. I have had many, many 
conversations. I was formerly Ambassador to Pakistan, and I 
probably met with General Raheel 50 times to discuss this 
particular issue.
    But I think that what has happened is that there is less of 
an emphasis on the strategic dimension that you alluded to, and 
I think there is a greater concern about taking on another 
fight when they already have a domestic terrorism issue that 
they are grappling with.
    So to some extent, I think this is a question of capacity 
for the Pakistanis to deal with, not 100 percent. I mean, I 
would not suggest that there are not some people who do favor 
the Taliban for strategic reasons. But I think it is in many 
ways, from the perspective of the military establishment, 
simply having too many things they have to deal with at once.
    And I think that we have the sense that we are making 
progress, slow, baby step progress, in all of these areas.
    But again, let me join with my colleague, Larry, in 
thanking you for giving us the opportunity to be here today and 
to thank you for your support and cooperation.
    The Chairman. Thank you.
    If I could follow up on that, you and I have had 
conversations about the Haqqani network. And we know that at 
roadblocks, they give them get-out-of-jail-free cards. They 
provide health care. I mean, the relationship is very cozy, and 
we understand. We know that the leadership of Pakistan knows, 
generally speaking, where they reside. They have moved in, in 
some cases, to suburban areas of Pakistan out of the fighter 
areas.
    So I mean it is a problem that we all understand.
    And we held subsidies, if you will, on buying fighter jets, 
to Pakistan. We see the clips each day and know that that has 
been widely reported both in Pakistan and India.
    But in all candor, I mean, you disagree with that effort, I 
know, and I appreciate that, although I have not heard much 
from the State Department since.
    What kind of effect does that have internally on Pakistan's 
calculations when they see that support is diminishing because 
of their lack of action?
    Ambassador Olson. Well, I think that there is a great deal 
of concern about what they see as a downward slope in the 
relationship with the United States. I think that one of the 
challenges here is, very candidly, Senator, that Pakistan is a 
very compartmentalized society and has a very compartmentalized 
government.
    I think that most Pakistanis genuinely believe that their 
country is a victim of terrorism and has been engaged in a 
longstanding battle with terrorism for which we are 
unappreciative. That is not entirely true, but it is the issue 
of those groups that threaten their neighbors, which, quite 
frankly, the best one can say is that they have not pursued 
them with the same degree of firmness that they have pursued 
those that threaten them domestically. And one could give a 
more negative interpretation, as you say.
    The Chairman. Well, look, I would say, on the 
compartmentalization, the big compartment is the military and 
the intelligence service, and the small compartment is the 
civilian leadership.
    I would make another observation that when I first got here 
a decade ago, 9 and a half years ago, our relationship with 
Pakistan was very transactional. And we tried to move through a 
period of time where it was more whole and Kerry-Lugar was put 
in place. And I think we have reverted back over time because 
of disappointments to a very transactional relationship.
    And I think it is unhealthy at present. And it seems to me 
that Pakistan has figured out a way to use their potential bad 
behavior as a way to get more U.S. resources. Our concerns 
about nuclear weapons on mobile launchers, our concerns about 
just what they are doing, in some ways has driven us to want to 
be more involved.
    And I look forward to debriefing you as time goes on, but I 
do think we need to be thinking about these things in a much 
different way.
    We thank you both for your service, and even though you 
will be gone from government today, hopefully Bill will answer 
the QFRs that will come through Monday afternoon. That will be 
his first test. We welcome him.
    We thank you. I do hope you will write a book. I mean that 
sincerely. I really do hope you will write a book that will 
help us think about this.
    And, Ambassador Olson, again, thank you for many, many 
years of distinguished service. I look forward to seeing you 
again.
    The meeting is adjourned.
    [Whereupon, at 11:44 a.m., the hearing was adjourned.]


                              ----------                              


              Additional Material Submitted for the Record

             response to question submitted to ambassador 
                    richard olson by senator cardin

    Question 1. Human Rights: Afghanistan continues to struggle in the 
area of human rights, especially women's rights. Discrimination, 
physical abuse, and repression are widespread. Despite progress in 
areas like school attendance, representation in government, and access 
to healthcare, women's basic rights remain inadequately safeguarded.

   Some on the Afghan Human Rights Commission have criticized the U.S. 
        for not prioritizing these issues with the Afghan government. 
        Is this a fair assessment? What have you done to specifically 
        advance human rights with Afghan government or security 
        authorities? Are you pushing the Afghan government to adopt the 
        optional protocol on the Convention Against Torture?

   What is the United States doing to curb abuses of women, girls, and 
        young boys in Afghanistan, including by members of the ANDSF?

   Given reports of child abuse by the ANDSF, have human rights 
        restrictions on security assistance such as the Child Soldiers 
        Prevention Act or Leahy vetting been triggered?

    Answer. A stable, secure, peaceful, and rights respecting 
Afghanistan has been and will continue to be a top priority for the 
Administration. Let there be no doubt that even though the U.S. combat 
mission in Afghanistan has ended, we remain committed to supporting the 
rights of the Afghan people, particularly women and children, to fully 
participate in Afghan society. This commitment was reinforced in March 
2015 when Secretary Kerry announced a new $800 million development 
partnership. This initiative will promote stability and accountability 
by linking funds to specific reforms that promote and protect human 
rights, including strengthening rule of law and enhancing women's 
rights. Additionally, we are proud of the human rights gains we have 
helped Afghanistan make over the last 15 years. In 2001, life 
expectancy for women in Afghanistan was just 44 years of age. Now it is 
62 years. Back then, almost no girls went to school. Today, 3 million 
attend. Women today hold office at almost all levels of the Afghan 
government, including three women ambassadors, 16 women judges, and 
seven women prosecutors in the Attorney General's Office. However, we 
recognize there is still more to do to solidify and advance these 
gains.
    We very strongly voice support for the Afghan constitution, its 
protections of women and children, and for Afghanistan's meeting its 
international commitments that bar torture, abuse, and any other cruel 
treatment. Our strategy for Afghanistan focuses on building a 
professional security force that respects human rights. We pursue our 
strategy on several fronts, including pressing the Afghan government to 
provide training on human rights to its security forces, and funding 
programs to raise awareness of human rights among security force 
personnel, vulnerable populations, and victims of abuse. As a result of 
our engagement, President Ghani has made training about security force 
obligations to protect and promote human rights and international human 
rights laws a key component of the Afghan National Defense and Security 
Forces (ANDSF) training. We have called on the Afghan government to 
revise its criminal code to criminalize the sexual exploitation of 
children, and to further strengthen accountability mechanisms to 
address crimes committed against children by the security forces.
    Regarding funding, we support programs that promote respect for 
women in the ANDSF, and support survivors of gender-based violence 
through recovery and reintegration. In FY 2015, we funded 14 women's 
shelters in 12 provinces, half of the country's estimated 28. We also 
funded 11 of Afghanistan's 17 family guidance centers to provide legal, 
mediation, and counseling services to survivors of gender-based 
violence, and those at risk of experiencing it. All together these 
programs benefited over 3,000 women and children. Moreover, since 2011, 
we have worked with the Attorney General's Office to establish, train, 
and mentor specialized Elimination of Violence against Women (EVAW) 
prosecution units and commissions throughout Afghanistan to prosecute 
cases of violence against women, particularly those brought under 
Afghanistan's EVAW Law. In FY 2015, we trained and mentored staff from 
20 provincial EVAW prosecution units and commissions. Additionally, our 
programming includes outreach to vulnerable male children and to 
communities to raise awareness of the mental health impacts of child 
abuse. Our programming also facilitates victims' access to psychosocial 
support centers and legal aid. We will continue working closely with 
the Afghan government and with Afghan communities to stop the abuse of 
women and children, especially by security forces.
    We take very seriously reports of human rights abuses, particularly 
those against the most vulnerable, women and children. Unfortunately, 
we have seen reports indicating that abuses were committed by security 
force personnel. Those reports did not trigger restrictions on 
assistance under the Child Soldiers Prevention Act. Some ANSDF units 
have been barred under the Leahy Law, restricting their access to 
assistance. Because of our implementation of the Leahy Law, we have 
seen changes in behavior. In 2015, Afghanistan successfully remediated 
two units that had been excluded from receiving assistance under the 
Leahy law, putting them well ahead of other countries' remediation 
efforts. We have also seen more self-reporting by ANDSF officials, 
signaling that they are also taking human rights abuses seriously. The 
Afghan government has also taken steps to protect children, including 
criminalizing the recruitment of children in its security forces and 
establishing 13 Child Protection Units around the country. We will 
continue to work with the Afghan government to reduce security force 
abuses and end the use of children in the security forces.

                               __________

            responses to questions for the record submitted 
              to ambassador richard olson by senator rubio

    Question 1.  In May 2014 President Obama identified two narrow 
missions in Afghanistan after 2014: training Afghan forces and 
supporting counterterrorism operations against the remnants of al 
Qaeda. It seems that both of these missions have suffered significant 
setbacks. President Obama reluctantly agreed to keep 8,400 American 
troops in Afghanistan, but given the recent increase in violence in 
Afghanistan why do we continue to play this numbers game rather than 
basing our military posture on the conditions on the ground and 
achievement of our goals?

    Answer. Afghan security forces assumed full responsibility for 
Afghanistan's security in January, 2015, as the United States and our 
NATO Allies and partners transitioned to the non-combat Train, Advise, 
and Assist Resolute Support Mission under NATO. 2016 is only the second 
year in which the Afghan National Defense and Security Forces (ANDSF) 
have had full responsibility for security operations, and they face a 
tough and determined enemy.
    U.S. and NATO capacity-building is a long process. The President, 
after extensive and deliberate consultations with his senior security 
advisors and military leadership, made a decision to maintain 8,400 
troops in Afghanistan, the majority focused on developing the 
capabilities of Afghanistan's security forces. His decision reflects 
our continued strong commitment to the development of the Afghan state 
and its security institutions.
    Our transition away from an operational role has enabled us, 
together with our NATO Allies and partners, to pivot to strengthening 
Afghan institutional capabilities, leaving the responsibility for 
combat operations to the Afghans. We are focused on strengthening the 
security institutions, and assisting Afghans in the development of 
financial, logistical, managerial systems, leadership and other areas 
needed to build sustained capacity.
    The ANDSF have an authorized force level of 352,000 police, 
soldiers, and airmen. These forces have responsibility for combat 
operations, with Afghan Special Forces showing that they are capable of 
planning and carrying out over 80 percent of offensive operations.
    Afghan forces, with international enabler support, have 
successfully defended the country's major population centers and have 
quickly regained critical checkpoints and terrain. Today's ANDSF look 
nothing like the patchwork of ill-equipped and poorly trained militias 
that numbered some 30,000 a decade ago.

    Question 2.  Was it a mistake for the President to lay out a 
timetable years in advance for our military deployments that allowed 
the enemy in Afghanistan to plan against our decreasing troop 
commitment?

    Answer. On June 22, 2011, President Obama announced 10,000 troops 
would be withdrawn from Afghanistan by the end of 2011 and an 
additional 23,000 troops would leave the country by the summer of 2012. 
He made it clear the drawdown would continue until the NATO Mission 
completely handed over security to the Afghan authorities by the end of 
2014.
    This plan has had results. On January 1, 2015, Afghan security 
forces assumed full responsibility for the nation's security. 
Afghanistan's National Defense and Security Forces (ANDSF) are gaining 
experience and confidence, and they are demonstrating that they are 
capable of defending their country.
    However, Afghan forces still need our help. They are still 
developing and improving, and the United States and our NATO Allies and 
partners remain firmly committed to supporting this development through 
the non-combat role of Train, Advise and Assist (TAA).
    At the NATO Summit this past July in Warsaw, NATO agreed to 
continue providing financial support to the Afghan forces through 2020 
and agreed to continue the non-combat Resolute Support TAA Mission in 
2017. This continued commitment to further support for the Afghan 
forces in the years to come makes clear that the United States and the 
international community continue to stand with Afghanistan.

    Question 3.  In July ISIL claimed responsibility for a bombing in 
Kabul that killed at least 80 people gathered during a peaceful 
demonstration. Have we allowed ISIL to grow in Afghanistan and pose a 
threat to U.S. troops and the government in Afghanistan?

    Answer. We take seriously the threat posed by ISIL, or Daesh, as 
does the Afghan government. We are working with our Afghan partners to 
counter Daesh in Afghanistan. According to assessments from the U.S. 
military and intelligence community, the United States and Afghan 
security forces have degraded the terrorist group, reducing the 
organization to less than half of its former estimated strength. 
Current intelligence estimates put the group's strength at 1,200 to 
1,300 fighters, with remnants limited primarily to a narrow band in 
Nangarhar.
    Daesh announced its affiliate in Afghanistan two years ago. Its 
adherents are primarily disaffected fighters from Tehrik-e Taliban 
Pakistan and the Afghan Taliban. Many of the fighters who joined Daesh 
were disgruntled with the Taliban leadership. In most cases, these 
fighters switched allegiance due to promises of higher salaries, 
greater power, personal disputes, or a greater adherence to Daesh's 
ideology. Daesh's ideology has not gained wide acceptance in 
Afghanistan, and as the Counter-ISIL Coalition continues to make 
progress against ISIL's core leadership in Syria and Iraq, Daesh in 
Afghanistan becomes increasingly isolated from the revenue and 
resources that Daesh core tries to supply to its branches.

    Question 4.  The Taliban has claimed responsibility for bombings in 
June and July, including an attack on a convoy of newly graduated 
Afghan police officers. Significant portions of several provinces are 
now under control of the Taliban. Is Afghanistan descending further 
into chaos?

    Answer. While Taliban attacks have captured headlines, the Afghan 
government remains in control of the majority of the country and all 
major population centers. Throughout this year, Afghan security forces 
have systematically executed a national military campaign strategy that 
has denied the Taliban a major strategic victory on the battlefield, 
repelling attempts to seize the provincial capitals of Helmand, Kunduz, 
and Uruzgan provinces. The Afghan government has had setbacks, as the 
Taliban have captured checkpoints and terrain, but the Afghan security 
forces have generally quickly recaptured those deemed most critical.

    Question 5.  Do we consider ISIL in Afghanistan and the Taliban 
enemies of the United States? Do our forces have the required 
authorities to target both groups?

    Answer. ISIL, or Daesh, seeks the creation of a transnational 
caliphate and actively targets the United States' interests both abroad 
and at home. They are clearly enemies of the United States.
    With the conclusion of NATO's International Security Assistance 
Force (ISAF) mission in December 2014, major U.S. combat operations 
against the Taliban came to an end. Since January 2015, as part of the 
non-combat NATO Resolute Support Mission, the United States, along with 
civilian and military personnel from 39 nations have been involved in a 
train, advise, and assist mission to continue the development of Afghan 
security forces. In May, the President gave the Department of Defense 
additional authorities within its existing two missions. These new 
authorities permit U.S. combat enabler support to the ANDSF to achieve 
``strategic effects.'' Our goal in Afghanistan remains support for the 
government of Afghanistan and support for an Afghan-led, Afghan-owned 
peace process as the only way to achieve lasting peace in Afghanistan. 
Specifically in February, as part of our counterterrorism mission in 
Afghanistan, the President authorized the Department of Defense to use 
lethal force against Daesh's organization in Afghanistan. In 2016, the 
ANDSF launched an operation called ``Shafaq III,'' focused on 
destroying Daesh strongholds in Nangarhar. After two months of Shafaq 
III operations, Daesh's fighting forces were diminished and their 
logistics, training capabilities, and ability to find safe haven were 
degraded.
    We would refer you to the Department of Defense for more specifics 
on these authorities.

    Question 6.  Press reports indicate that the Taliban are on the 
verge of having control over Helmand province. Do we expect the Taliban 
to hold this territory? Is the Afghan government able to counter these 
advances without U.S. support?

    Answer. The Taliban are relatively well positioned in Helmand, 
given the province's extremely rural and rugged terrain and the 
Taliban's strong historic presence in the province. Nonetheless, 
despite the Taliban's continued pressure on the ANDSF in Helmand, we do 
not expect the Taliban to seize the Helmand capital of Lashkar Gah. 
While the Taliban have contested terrain around Lashkar Gah, Afghan 
forces have mounted effective counterattacks, frequently re-taking lost 
terrain in hours or days, and employing air to ground strikes in 
support of ground operations.
    In 2016, the United States increased the number of U.S. military 
advisors in Helmand to accelerate the reconstitution and training of 
the Helmand-based 215th Army Corps.

    Question 7.  The Special Inspector General for Afghanistan 
Reconstruction released a report yesterday noting that corruption leads 
to grievances against the Afghan government and channels support to the 
insurgency. The report also noted that ``the failure to effectively 
address the problem means U.S. reconstruction programs, at best, will 
continue to be subverted by systemic corruption and, at worst, will 
fail.'' What are we doing to ensure that the Afghan government is 
making progress in fighting corruption?

    Answer. We take corruption seriously, as does the Afghan 
government. The Department of State routinely reinforces with Afghan 
officials the importance of taking steps to prevent corruption in 
Afghanistan. We make clear that corruption threatens international 
support for Afghanistan and undermines the country's further 
development.
    The majority of U.S. assistance goes to the security sector, and 
the Department of Defense works closely with the Afghan National 
Defense and Security Forces (ANDSF) to eliminate and prevent 
corruption. Assistance to the Ministries of Defense and Interior is 
``conditioned'' through commitment letters that these ministries sign 
with the Commanding General of Combined Security Transition Command-
Afghanistan (CSTC-A). These commitment letters include specific actions 
to combat corruption. Failure to fulfill the terms of commitment 
letters carries real consequences. For example, on a number of 
occasions, CSTC-A has frozen the delivery of assistance or supplies, 
such as fuel, to the ministries if there is credible evidence that they 
are not effectively implementing specific anti-corruption measures.
    The State Department and USAID also have several programs in place 
to support and further the Afghan government's efforts to tackle 
corruption and strengthen the rule of law. The Department's Bureau for 
International Narcotics and Law Enforcement supports institutional 
reform in the Attorney General's Office, the Ministry of Justice, the 
Supreme Court, and Ministry of Women's Affairs. Support focuses on 
improving processes for hiring, budgeting, and procurement to minimize 
opportunities for corruption.
    We have trained over 5,000 Afghan judges, attorneys, and 
investigators to build their knowledge of procedures and laws. 
Additionally, nearly 3,000 law students have used our supplemental 
course materials, attended our lecture and research/writing workshops, 
and gained practical experience in our national network of legal aid 
clinics.
    USAID's Advancing Efforts for Reform and Civic Accountability 
(AERCA) project supports the Afghan government's commitment to 
preventing corruption by strengthening the ability of Afghan civil 
society organizations to oversee and support government officials in 
implementing reforms that will help combat and curb corruption. This 
project also focuses on curbing lower level corruption, specifically 
bribery, by streamlining and reforming business practices in many of 
the Afghan government offices that engage directly with the public. For 
example, one key goal of the AERCA project is to support the Afghan 
government in its reform of national identification cards, drivers' 
licenses and small business licenses, public services which are 
vulnerable to corruption.

                               __________

            responses to questions for the record submitted 
              to donald l. sampler, jr. by senator cardin

    Question 1.  I am concerned that democracy and governance funding 
appears to have fallen in Afghanistan. Given the current political 
problems between the President and CEO, it seems like D&G support would 
be necessary. Please describe USAID's commitment to democracy 
programming in Afghanistan and your plans for the future.

    Answer. USAID supports Afghan-led development that builds 
government systems, improves public outreach, enhances financial 
management, and strengthens linkages and information exchange among 
central and sub-national levels of government. USAID programming 
targets Rule of Law, Good Governance, Civil Society/Media, and 
Political Competition and Consensus Building. Even in this increasingly 
strained budgetary environment, USAID remains committed to robust 
democracy programming.
    Given considerable uncertainty surrounding the timing of future 
elections and the role political parties will play in Afghanistan's 
political processes, further USAID programming for political parties is 
on hold until electoral reforms that encourage the formation of 
political parties are enacted. Once there is more clarity on this 
subject, USAID may broaden its electoral reforms support to include 
open and effective election administration, as well as promoting broad 
public participation and civic awareness in the electoral process. 
Following the next elections, USAID will work with elected political 
entities to implement policies that are responsive to the broad public 
constituencies that supported their election to increase the public's 
confidence in the Afghan government and its ability to deliver.
    Plans for USAID's Democracy, Human Rights and Governance (DRG) 
future efforts include media programs that will advance citizen 
engagement and encourage them to hold public institutions accountable. 
These programs will also promote active participation in economic, 
political, governance, and other processes with the aim of creating 
more peaceful, democratic, and inclusive communities, with a particular 
focus on increasing women's participation.
    Another current method through which USAID furthers democracy and 
good governance in Afghanistan is by investing in the World Bank-
managed Afghanistan Reconstruction Trust Fund (ARTF), including the New 
Development Partnership (NDP) and the Second Public Financial 
Management Reform Project, which is focused on good governance. The 
ARTF is a multilateral, on-budget assistance fund that aims to provide 
fiscal stability to the Afghan government and incentivize it to provide 
essential services, build better governance, and enable citizen 
participation that will result in greater confidence in the 
democratically elected government.

    Question 2.  The New Development Partnership incentivizes funds 
based on actual Afghan government reforms. How would you assess the NDP 
to date? Is this a model which USAID is considering in other countries?

    Answer. Through the NDP, USAID will make up to $800 million 
available over four years to incentivize the Government of Afghanistan 
(GOA) to support the achievement of forty (40) targeted development 
results. Targeted areas for reform under the NDP include fiscal 
sustainability, governance / anti-corruption, and poverty reduction. 
The successful achievement of each development result, valued at $20 
million, allows the GOA to receive up to a $200 million per year. In 
order for the NDP incentivized funding to be released, the U.S. 
government must first verify that an agreed result with an associated 
indicator has been achieved.
    Overall, the GOA has made significant progress on achieving NDP 
reforms. In calendar year 2015, the GOA achieved 95% of planned results 
and $180 million in NDP incentive funding was disbursed to the GOA. 
USAID recently completed verification of 2016 mid-year results and has 
determined that the GOA successfully achieved additional results for 
which it will receive $100 million in NDP incentive funds. Significant 
progress has been made towards achieving the remaining results for 
2016. These completed reforms include:

   Share of non-tax revenue in total domestic revenue increased from 
        16% in 2014 to 20% in 2015, which strengthens the Afghan 
        government's ability to govern and deliver public services.

   Establishment of the National Procurement Committee which meets and 
        reviews procurements regularly, which establishes a 
        predictable, transparent process for how government ministries 
        procure contracts.

   National Action Plan for Women, Peace, and Security approved by the 
        President, which once approved by the Afghan Parliament, will 
        commit the GOA to increasing women's participation in the peace 
        process and the security sector and ensuring that women have 
        access to protection and relief services.

   Tax Administration Law signed by the President and implementation 
        started, which implements codified tax collection methods, 
        rights, and obligations of taxpayers in order to ensure fiscal 
        sustainability.

   Accuracy and efficiency of customs processes improved through the 
        implementation of an automated valuation module in an effort to 
        reduce the opportunity of corrupt behavior.

    We have evidence that the NDP is helping the government prioritize 
and achieve results. For example, in December 2015 USAID informed the 
government that it had not achieved a civil service reform indicator 
under the NDP. Shortly thereafter the GOA took urgent action to 
complete the necessary steps to fulfill the NDP indicator.
    The Afghanistan government is making vigorous efforts to accomplish 
the reforms included in the NDP. The Afghan Minister of Finance 
recently noted during a ceremony at the Presidential Palace, ``NDP is 
an effective mechanism that aligns US assistance with the GOA's reform 
agenda. As an on-budget funding modality, it has given the GOA the 
required fiscal space to implement its development priorities that will 
improve the lives of the Afghan people.''
    The Agency is considering the applicability of this model for other 
countries.

    Question 4.  Monitoring and Evaluation: The ``tiered monitoring 
system'' uses different sources of information to assess whether 
programs are actually being implemented in the absence of U.S. direct 
monitoring. I understand that it has been online for months now.

   How would you assess the success of the tiered monitoring program 
        to date?

   How can the U.S. realistically implement aid programs in parts of 
        the country where local Afghan staff are reluctant to go?


    Answer 4. The multi-tiered monitoring (MTM) approach helps mitigate 
the challenges associated with providing oversight in a restrictive 
environment--particularly, the limitations that prevent U.S. government 
staff from directly observing the implementation of USAID projects in 
Afghanistan. The MTM approach allows project managers in Afghanistan to 
collect project monitoring data from an expanded set of sources on the 
progress, completion, and effectiveness of USAID projects in order to 
assess whether project objectives are being met and whether adjustments 
are required. USAID/Afghanistan launched the MTM approach in late 2013 
and formal guidance was approved in March 2016 to standardize the 
implementation of the approach across all of USAID's projects in 
Afghanistan.
    Some examples of improvements in project management and performance 
that have resulted from USAID staff drawing upon information from 
different monitoring ``tiers'' include:

   In the infrastructure sector, USAID committed to building a 
        critical, 101-kilometer road from Gardez to Khost in Western 
        Afghanistan to enable the transport of goods between 
        Afghanistan and Pakistan. USAID originally contracted with an 
        international firm to implement the project; however, after 
        monitoring efforts revealed the contractor was struggling to 
        build community support for the project, which was causing 
        delays, USAID turned project implementation over to a local 
        firm. As a result, the project proceeded much faster and was 
        recently completed.

   In August 2013, USAID signed an implementation letter with the 
        Ministry of Education to fund a community-based education 
        program. The project was originally intended to be implemented 
        ``on-budget'' directly through the Ministry of Education. 
        However, careful monitoring of the Ministry of Education's 
        performance revealed it was not achieving key performance 
        targets at the beginning of implementation. Consequently, USAID 
        did not disburse funds to the Ministry of Education and instead 
        partnered with UNICEF to implement the program. UNICEF has 
        since partnered with the Ministry of Education, as well as 
        provincial and district education offices, to improve 
        community-based education in Afghanistan.

   Additionally, using independent contractors, USAID has conducted 
        over 32,000 monitoring and verification events over the past 
        six years in Afghanistan. The independent contractors are often 
        local Afghans who can easily travel throughout the country to 
        provide objective validation and quality assessments on USAID 
        projects. The contractors use a variety of monitoring methods 
        and tools, including photos, global positioning systems (GPS), 
        site visits, and interviews, and they in turn provide 
        information from their visits to USAID Contracting Officer's 
        Representatives/Agreement Officer's Representatives for 
        additional follow-up.

    In 2013, USAID requested that the Office of the Inspector General 
(OIG) audit USAID/Afghanistan's MTM approach to help identify potential 
monitoring gaps as early as possible and to make appropriate 
corrections. The report was issued in late 2015 and USAID has taken 
swift action to implement the recommendations in the audit. All 
recommendations of the OIG's audit were closed as of August 26, 2016.
    USAID closely monitors the operational environment in which it 
implements projects, including through monthly operational environment 
reports that track changes in accessibility in different parts of the 
country. These reports show any disruptions or delays in USAID projects 
in the previous month that have resulted from changes in the operating 
environment, and thus allow USAID to assess whether changes in 
implementation are needed. To implement projects, USAID relies heavily 
on its implementing partners, which in many cases employ Afghan staff 
who are from areas where the projects are taking place due to their 
familiarity and ability to operate in the area. In cases in which there 
are security concerns that severely limit the mobility of our Afghan 
implementing partner staff, USAID pursues actions such as adjusting our 
implementation approach or temporarily or permanently suspending 
projects in that area.

                               __________

            responses to questions for the record submitted 
               to donald l. sampler, jr. by senator rubio

    Question 1.  What options are available for Afghanistan to 
compensate for the decrease in donor aid since the late 2014 security 
transition? How has the slowing of economic growth affected attitudes 
of the population and support for the government, if at all?

    Answer. As international financial support for Afghanistan 
declines, donors and the Afghan government are working together to 
concentrate resources on the building blocks of sustainable development 
in order to maintain development progress. This includes an emphasis on 
activities that: 1) facilitate private sector-led economic growth; 2) 
investment in human capital to build a healthy educated future 
workforce; and 3) incentivize key Afghan reforms so that the Government 
of Afghanistan (GOA) can be more accountable to its citizens.
    The New Development Partnership (NDP) is a strong example of 
incentivizing the GOA. Announced by President Obama in March 2015 
during the visit of President Ghani and Chief Executive Officer 
Abdullah to Washington, D.C., the NDP offers assistance to the Afghan 
government based upon the fulfillment of approximately 40 total reforms 
in the areas of fiscal sustainability, governance, and poverty 
reduction. The reforms are jointly agreed upon by USAID and 
Afghanistan's Ministry of Finance. Once a reform is achieved, a set 
amount of USAID funding is committed to support the Government of 
Afghanistan's budget priorities. In order for funding to be released, 
the U.S. Government must first verify that a reform has been achieved.
    Overall, the GOA has made steady progress on NDP reforms. As of 
September 2016, the Afghan government had accomplished 16 out of 20 
reforms that were expected to be achieved by the end of calendar year 
2016. It is important to note that the achievement of only ten reform 
indicators has been publicly announced; the achievement of six 
additional reform indicators will be announced publicly in the coming 
days.
    A few examples include:

   Establishment of GOA's National Procurement Committee which meets 
        and reviews procurements regularly, which establishes a 
        predictable, transparent process for how government ministries 
        procure contracts.

   National Action Plan for Women, Peace, and Security approved by the 
        President, which--once approved by the Afghan Parliament--will 
        commit the GOA to increasing women's participation in the peace 
        process and the security sector and ensuring that women have 
        access to protection and relief services.

   Customs Department rolled out a national e-payment system, which 
        enhances the GOA's ability to collect revenue on imports and 
        reduces opportunities for ``skimming'' and corruption.

    The U.S. Government recognizes that the Afghan economy plays a 
critical role in public confidence, both between Afghans and their 
elected government, and in how Afghans view their future prosperity. In 
particular, creating viable, sustainable employment opportunities is 
essential to providing young Afghans with a reason to stay in their 
homeland rather than emigrate. Working closely with other donors, USAID 
supports the GOA in its efforts to create jobs and increase economic 
growth in the country. USAID's Afghanistan Workforce Development 
Program (AWDP) complements the development goals of the Afghan 
government by strengthening the labor pool in major economic areas of 
the country, seeking to address the challenges of high unemployment and 
the scarcity of technically-skilled Afghan labor and trained business 
managers. AWDP has provided 30,902 mid-career/semi-professional 
employees and job seekers--36 percent of whom were women--with 
technical and business management skills. USAID also supports the GOA's 
Jobs for Peace program, which provides small grants to rural 
communities to fund local public works projects.
    Even with the right plan, a better security environment, and 
progress on the reform agenda, the consensus among donors is that 
Afghanistan will require international assistance for the foreseeable 
future. As a result, we remain committed to our Afghan partners and 
ensuring a stable international coalition of support for Afghanistan. 
The Department of State and USAID worked with the Afghan government and 
the European Union to plan the Brussels Conference on Afghanistan. The 
European Union co-hosting the Brussels conference with the GOA and 
anticipates most major donors will commit to providing assistance ``at 
or near current levels,'' through 2020.
    Recognizing that assistance budgets will decline, USAID is working 
closely with our partners to ensure the GOA and civil society have the 
necessary support and capacity to increasingly manage and monitor their 
own projects in Afghanistan. USAID programs are designed in 
collaboration with the GOA and are targeted to key areas where our 
Afghan partners are seeking assistance. Annually, USAID undertakes a 
portfolio review with the GOA to ensure programmatic alignment and the 
continued improvement in capacity of the GOA assume responsibility to 
provide services to its citizens. In 2015, Afghanistan's budgetary 
revenue rose by nearly 22 percent over the previous year, a positive 
sign that the GOA is increasingly able to fund the services it 
provides.

    Question.  What is the status of U.S. efforts to establish a ``New 
Silk Road'' trade and transit hub that might help Afghanistan's 
economy? What have been the key accomplishments of that effort to date?

    Answer. USAID works in close coordination with the Department of 
State to further the goals of the New Silk Road vision to strengthen 
connectivity between Afghanistan and its neighbors in Central and South 
Asia, bolstering Afghanistan's economic growth and stability. Efforts 
are focused in the following areas:

    Trade: U.S. Government (USG) support has recently helped 
Afghanistan's accession to the World Trade Organization (WTO) and has 
also assisted other countries in the region, such as Kazakhstan and 
Tajikistan, to implement important WTO commitments. In September 2016, 
USAID sponsored the 6th annual Central Asia Trade Forum (CATF), 
bringing together approximately 500 entrepreneurs, traders, 
businessman, policymakers, diplomats, and journalists from across 
Central Asia, Afghanistan, Pakistan, and India to identify trade 
opportunities. The CATF has firmly established itself as a powerful 
convening forum for traders in the region, with more than $9 million in 
new business deals agreed to at the CATF this year. Additionally, USAID 
built a critical, 101-kilometer road from Gardez to Khost in Western 
Afghanistan to enable the transport of goods between Afghanistan and 
Pakistan. These are tangible demonstrations of the impact that USG 
assistance is having in this important area.

    Energy: Working closely with other donors, the USG provides 
important financial and technical support for the Central and South 
Asia CASA-1000 project, a 1225 kilometer transmission line system that 
will allow Tajikistan and the Kyrgyz Republic to sell 1300 megawatts of 
clean, surplus hydropower to Afghanistan and Pakistan. CASA-1000 will 
improve cooperation on energy trade across Central and South Asia, 
providing upstream revenue to Tajikistan and Kyrgyzstan, generating 
transit fees and electricity for Afghanistan, and delivering much-
needed electricity to Pakistan. CASA also forms part of efforts to 
expand the regional market for power across Central and South Asia. The 
USG strongly supports this objective. A bigger, more robust regional 
energy market will allow exporting countries and transit countries, 
e.g. Afghanistan, to increase their domestic revenue base and become 
less reliant on external donors' support, The USG has committed $15 
million to CASA and this supports construction, technical project 
support and work of the CASA secretariat. This assistance has helped to 
leverage significant multilateral contributions to CASA. Technical 
assistance provided by USG is currently ensuring that the project 
benefits from specialist inputs on major procurements.
    The USG is also working with Asian Development Bank, through 
technical coordination and through financial support via the 
Afghanistan Infrastructure Trust Fund, on implementation of the 
Turkmenistan-Uzbekistan-Tajikistan-Afghanistan-Pakistan (TUTAP) energy 
transmission inter-connection program. Our support for TUTAP is helping 
to connect more Afghans to safe and reliable supplies of power and is 
an essential part of growing the market for power across the region.
    Finally, USAID, in partnership with Afghanistan's Ministry of 
Energy and Water, organized a two-day Energy Business Opportunities 
Conference in Dubai, on September 18-19, 2016. More than 200 
participants representing Middle Eastern, Central Asian, Turkish, 
European, and North American companies working in the energy sector 
attended the event, in addition to Afghan and international financial 
institutions and officials from various Afghan Ministries, the United 
Arab Emirates, and the USG.

    Nutrition: Working with Kazakh millers, exporters, and specialist 
NGOs, USAID has fortified wheat exports and cooking oils exported from 
Kazakhstan to customers in Afghanistan and Pakistan. USAID is also 
currently in the process of determining a U.S. university that will 
research wheat productivity and nutrition.

    Water: Several countries in Central Asia are among the most 
inefficient water users in the world. A lack of transboundary water 
agreements across the region leads to high levels of uncertainty about 
water availability. In turn, this leads to high levels of consumption 
and inefficient patterns of water use. Central and South Asia are 
forecast to be negatively affected by climate change, with water 
shortages expected to be a particular threat to the economies of the 
region, not just because of the impact on agriculture and food 
security, but because of the important role hydropower plays in energy 
production. Effective transboundary water resource allocation is 
especially important. USAID is working with other donors and host-
country partners in the water sector to support programs that are 
building a cadre of experts who can better manage water resources 
across the region. Building these skills is an important element in 
promoting cooperation on more efficient transboundary water use across 
Central and South Asia.
    Representatives from Afghanistan's Ministry of Foreign Affairs, 
Ministry of Energy & Water, and Ministry of Finance visited eight U.S. 
cities from September 12-30 to learn about water resource management in 
rural and urban areas, the use of water resources and water sharing 
agreements between different actors, cross-border water challenges and 
conflict resolution strategies, and challenges to the equitable use and 
allocation of water resources.
    Additionally, The United Nations Regional Centre for Preventive 
Diplomacy for Central Asia (UNRCCA) hosted a workshop in Almaty 
September 12-13 on Transboundary Water Resources in the Region of 
Central Asia: The State of Play. The workshop included Afghanistan and 
the Central Asian countries, except Uzbekistan. Supported by the USG, 
the United Nations Regional Center for Preventive Diplomacy for Central 
Asia and UNESCO hosted a meeting in Bishkek, Kyrgyz Republic, 8-9 
November 2016. The seminar was called to discuss the impact of glaciers 
melting on water resources in Central Asia in the context of climate 
change.

                               __________

                                  <all>
</pre></body></html>
